U.S. Department of Agriculture
 Office of Inspector General
      Northeast Region
          Audit Report

    Food and Nutrition Service’s
         Fiscal Year 2000
       Financial Statements
        Alexandria, Virginia




                Report No.
                27401-20-Hy
                February 2001
                  UNITED STATES DEPARTMENT OF AGRICULTURE
                                 OFFICE OF INSPECTOR GENERAL

                                      Washington D.C. 20250




DATE:         February 1, 2001

SUBJECT:      Food and Nutrition Service's Financial Statements for
              Fiscal Year 2000

TO:           George A. Braley
              Acting Administrator
              Food and Nutrition Service


This report presents the results of our audit of Food and Nutrition Service's (FNS) Principal

Statements and Required Supplementary Stewardship Information for the fiscal year (FY)

ended September 30, 2000. The report contains an unqua lified opinion on the FY 2000

statements and the results of our assessment of FNS' internal control structure and

compliance with laws and regulations.


The corrective actions taken or planned in FNS’ responses to the recommendations in this

report are sufficient for management decision.            Please follow your internal agency

procedures in forwarding final action correspondence to the Office of the Chief Financial

Officer.


We appreciate the courtesies and cooperation extended to us during the audit.


/S/

ROGER C. VIADERO
Inspector General
                             EXECUTIVE SUMMARY
                        U.S. DEPARTMENT OF AGRICULTURE
                          FOOD AND NUTRITION SERVICE’S
                                 FISCAL YEAR 2000
                              FINANCIAL STATEMENTS
                               ALEXANDRIA, VIRGINIA

                                 AUDIT NO. 27401-20-Hy

                                         We have audited the accompanying Principal
               PURPOSE                   Statements (hereinafter referred to as financial
                                         statements) and Required Supplementary
                                         Stewardship Information of the Food and
Nutrition Service (FNS), as of September 30, 2000. These financial statements are the
responsibility of FNS' management. Our responsibility is to express an opinion on these
financial statements based on our audit.

Our audit objectives were to determine whether: (1) FNS' financial statements present
fairly, in all material respects, in conformity with generally accepted accounting principles
(GAAP), the assets, liabilities, and net position; net costs; changes in net position;
budgetary resources; and reconciliation of net costs to budgetary obligations; (2) FNS has
an internal control structure that provides reasonable assurance of achieving its internal
control objectives; (3) FNS complied with laws and regulations for those transactions and
events that could have a material effect on the financial statements; and (4) the
information and manner of its presentation in the Overview and Supplemental Information
sections was materially consistent with the information in the financial statements.

We conducted our work at the FNS National Office in Alexandria, Virginia and 4 of the
7 FNS regional offices; the Benefit Redemption Systems Branch in Minneapolis,
Minnesota; and 2 of 12 Federal Reserve Banks.

The principal FNS programs are the Food Stamp Program (FSP), Child Nutrition
Programs (CNP), and the Special Supplemental Nutrition Program for Women, Infants,
and Children (WIC ). Congress appropriated FNS over $35 billion for fiscal year (FY) 2000,
almost 49 percent of the total U.S. Department of Agriculture budget.

                                           In our opinion, the financial statements referred
       RESULTS IN BRIEF                    to above, including the accompanying notes,
                                           present fairly in all material respects, in




USDA/OIG-A/27401-20-Hy                                                                Page i
conformity with GAAP, the assets, liabilities, and net position as of September 30, 2000 of
FNS; as well as its net costs, changes in net position, budgetary resources, and
reconciliation of net costs to budgetary obligations for the year then ended. As discussed
in Notes 1D and 3, the largest component of non-Federal accounts receivable consists of
food stamp recipient claims. States establish claims against households to recover
overissued food stamp benefits and report to FNS on this activity. State systems have
been determined to be unreliable; accordingly, FNS does not know the balance of the
gross accounts receivable, nor does it know the related bad debt (uncollectible
receivables) expense. The Federal Accounting Standards Advisory Board (FASAB)
permits Federal entities to estimate its accounts receivable and FNS has developed an
estimate of about $1.1 billion based upon its quality control system (which projects
overissuances). Related bad debts are anticipated to be a significant portion of this
amount but cannot be reasonably quantified. As a result, this expense is not separately
reported on the Statement of Net Cost but is included in the cost of the FSP.

Several material internal control weaknesses warrant corrective action, as discussed in our
Report on FNS' Internal Control Structure.

FNS has not corrected its internal control weakness related to food stamp recipient claims
(gross accounts receivable, non-Federal) although corrective actions have been initiated.
The FSP accounts receivable accounting and reporting weakness has been reported in
FNS’ financial statements audit reports since FY 1991. Information available to FNS
shows that 23 States have claims systems that can report accurate, complete, and
supportable information. An additional 27 States have corrective action plans in place to
address reported deficiencies. All corrective action plans are expected to be implemented
by September 2001. During FY 2000, FNS misstated its reliance on the reliability of State
reported claims establishment data in its FY 1999 Annual Program Performance report,
which is required by the Government Performance and Results Act of 1993. FNS needs
to develop appropriate controls to ensure that information reported in external reports is
consistent with known weaknesses.

•     Federal and Non-Federal costs and liabilities were misclassified in FNS’ accounting
      system because incorrect budget object class codes were used to record
      transactions. FNS needs to strengthen internal controls to ensure adequate data
      validation. Over 3,700 accounting adjustments totaling over $51 million had to be
      made to properly classify costs and payables on the financial statements.
      Additionally, FNS made accounting adjustments to obligations totaling almost
      $46 million to ensure that future expenses will be applied to the correct line item on
      the Statement of Net Cost.

•     Unliquidated obligations by fiscal year of appropriation are misstated on FY 2000
      reports to the U.S. Department of the Treasury (Treasury) and Office of
      Management and Budget (OMB). FNS does not have an automated system in
      place to provide appropriate fiscal year integrity for reporting the redemption of food
      stamp benefits delivered via electronic benefits transfer (EBT) systems. This

USDA/OIG-A/27401-20-Hy                                                               Page ii
     condition was reported in prior financial statements audits. FNS performs a manual
     calculation to account for EBT redemptions in the proper fiscal year. However,
     FNS’ calculation did not include all accounting adjustments reported by EBT
     processors and other errors were made. Although a supervisory review was
     performed and some of the errors were identified, FNS did not ensure corrections
     were made. FSP unliquidated obligations reported on external reports for FY 2000
     were overstated by more than $26 million and understated the four preceding fiscal
     years by the same amount.

•    FNS regulations require States to expunge FSP benefits from recipient accounts
     when the FSP household does not access the benefits after a period of one year,
     unless a waiver is approved for a shorter duration. FNS has not established
     adequate controls to evaluate the reasonableness of State reported data. FNS has
     not monitored and, therefore, cannot explain why expunged data reported by
     22 States in FY 1999 and 15 States in FY 2000, was inconsistent with historical
     trends. We identified over $13.2 million (net) in questionable expungement data
     reported by States that could misstate the FSP obligation balance.

•    FNS incorrectly calculated the accounts payable writedown for WIC for FY 2000.
     Net adjustments totaling over $19.7 million made by FNS during the WIC closeout
     process were not included in the accounts payable model. Sufficient followup was
     not performed to ensure errors identified during supervisory review were corrected
     in the model. Therefore, FNS had to make adjustments to seven line items on the
     Balance Sheet and Statements of Net Cost, Changes in Net Position, and
     Financing.

•    FNS has systems on its networks that have potentially serious security
     vulnerabilities that could impact FNS operations. These vulnerabilities, if left
     uncorrected, could jeopardize the security of FNS’ networks and its critical and
     sensitive data, including financial data.

•    User identification and password security, as well as FNS’ process for authorizing
     continuing access to financial accounting and payment systems, are not always
     effectively managed to ensure individual accountability. Although our audits have
     not detected unauthorized access, FNS’ security processes and controls may not
     prevent or detect unauthorized individuals from accessing, modifying, or destroying
     sensitive financial and program information.

•    EBT processors can adjust previously submitted issuance information in the
     Account Management Agent (AMA) system without State knowledge or approval
     because of a system design flaw. As a result, the processors can gain access to a
     larger amount of Federal funds than authorized by the States. In FY 1997, our
     audit report on the AMA system recommended that FNS amend the AMA system
     design to prohibit the entry of issuance adjustments for previously entered dates.
     FNS officials stated that this enhancement would not be implemented until

USDA/OIG-A/27401-20-Hy                                                          Page iii
     January 2001. In response to our prior financial statements audit report, beginning
     in FY 1999, FNS directed States to perform, on a daily basis, a reconciliation of
     State issuance data to EBT processor and AMA data. However, this reconciliation
     does not prevent unauthorized adjustments from being posted to AMA; but it would
     identify the adjustments after the fact. Also, to further exacerbate this control
     weakness, FNS policy allows an excessive amount of time (90 days) for EBT
     processors to report corrections to issuance data. EBT technology provides the
     capability to make corrections within 30 days.

•    State procedures for reviewing access to EBT systems need strengthening. We
     have reported this problem in prior audit reports issued since 1996. FNS’ corrective
     actions to address this problem have not been effective. State EBT systems are an
     integral part of FNS’ control structure to record, process, summarize, and report
     both program and financial data that is material to FNS’ financial statements.
     Although our audits did not detect any unauthorized access to the EBT systems,
     the systems are vulnerable to misuse because unauthorized access may not be
     prevented or detected.

•    FNS needs to develop and implement procedures to review EBT processor SAS 70
     examination reports to determine if they meet regulatory requirements and ensure
     timely resolution of identified control weaknesses. A SAS 70 examination enables
     auditors of service organizations to issue a report on controls that may effect a user
     organization. FNS uses commercial EBT service organizations to record, process,
     summarize, and report both program and financial data for the FSP that is material
     to FNS’ financial statements. Without audit/review and resolution procedures, there
     is reduced assurance that EBT processors are correcting deficiencies in their
     control structure that may impact the reporting of reliable FSP data. Also, there is a
     risk that potential material fraudulent activity may not be prevented or detected.

Our Report on Compliance with Laws and Regulations contains one instance of
noncompliance with other laws and regulations.

•    FNS has not completed corrective actions to bring its FSP debt collection offset
     program into compliance with the Debt Collection Improvement Act (DCIA ). We
     reported, in our FY 1999 financial statements audit, that FNS had not always
     effectively pursued all FSP recipient claims debt through the Treasury Offset
     Program (TOP). FNS was in noncompliance with DCIA because it had not
     developed or implemented alternative procedures for pursuing this debt when
     Treasury’s requirement for the use of an Internal Revenue Service (IRS) address
     (maintained for tax purposes) for due-process notification was eliminated. Also,
     FNS was not referring delinquent FSP retailer debt for offset. FNS has several pilot
     projects planned to determine how it can assist States in pursuing offset of debt
     when FSP recipient addresses do not match IRS records. FNS will implement
     referral of retailer debt to TOP effective March 2001.


USDA/OIG-A/27401-20-Hy                                                             Page iv
                                           FNS made progress in strengthening its internal
    KEY RECOMMENDATIONS                    control structure in FY 2000, to provide a
                                           financial management system that contains
                                           sufficient discipline, effective internal controls,
and reliable data. However, FNS needs to continue these efforts and complete the
following actions. Recommendations to improve computer security, as well as identified
control weaknesses in the reporting of EBT data, have been made in other audit reports.
Therefore, OIG will not make additional recommendations at this time.

•      Develop controls and procedures that will provide a consistent and accurate
       representation of the reliability of FSP claims data reported by States.

•      Establish controls to ensure accounting transactions are properly classified and that
       errors detected by supervisory review are corrected.

•      Establish a followup process to ensure that data errors are corrected when
       determining the appropriate fiscal year of FSP redemption and correct errors on
       external reports to Treasury and OMB.

•      Expedite the development and implementation of procedures to review SAS 70
       reports for compliance with regulatory requirements and that identified weaknesses
       are timely resolved by EBT processors.

                                            FNS officials agreed with the findings and
       AGENCY POSITION                      recommendations contained in this report.




USDA/OIG-A/27401-20-Hy                                                                Page v
                                                TABLE OF CONTENTS


EXECUTIVE SUMMARY.............................................................................................................. i
   PURPOSE .................................................................................................................................. i
   RESULTS IN BRIEF.................................................................................................................. i
   KEY RECOMMENDATIONS ..................................................................................................v
   AGENCY POSITION ................................................................................................................v
REPORT OF THE OFFICE OF INSPECTOR GENERAL.......................................................1
REPORT OF THE OFFICE OF INSPECTOR GENERAL ON INTERNAL CONTROL
STRUCTURE ................................................................................................................................3
FINDINGS AND RECOMMENDATIONS..................................................................................7
   CHAPTER 1 ..............................................................................................................................7
   CONTROL WEAKNESS RELATED TO ACCOUNTS RECEIVABLE, FOOD STAMP
   RECIPIENT CLAIMS, CONTINUE TO EXIST......................................................................7
   FINDING NO. 1 .........................................................................................................................7
   RECOMMENDATION NO. 1 ...................................................................................................9
   RECOMMENDATION NO. 2 ...................................................................................................9
   CHAPTER 2 ............................................................................................................................10
   FEDERAL AND NON-FEDERAL COSTS AND LIABILITIES WERE MISCLASSIFIED
   DUE TO USE OF INCORRECT BUDGET OBJECT CLASS CODES............................10
   FINDING NO. 2 .......................................................................................................................10
   RECOMMENDATION NO. 3 .................................................................................................11
   RECOMMENDATION NO. 4 .................................................................................................12
   RECOMMENDATION NO. 5 .................................................................................................12
   RECOMMENDATION NO. 6 .................................................................................................12
   CHAPTER 3 ............................................................................................................................13
   UNLIQUIDATED OBLIGATIONS BY FISCAL YEAR ARE MISSTATED ON
   EXTERNAL REPORTS TO TREASURY AND OMB ........................................................13
   FINDING NO. 3 .......................................................................................................................13
   RECOMMENDATION NO. 7 .................................................................................................14
   RECOMMENDATION NO. 8 .................................................................................................15

USDA/OIG-A/27401-20-Hy                                                                                                            Page vi
   RECOMMENDATION NO. 9 .................................................................................................15
   CHAPTER 4 ............................................................................................................................16
   CONTROLS OVER STATE REPORTED EXPUNGEMENT DATA NEED
   IMPROVEMENT .....................................................................................................................16
   FINDING NO. 4 .......................................................................................................................16
   CHAPTER 5 ............................................................................................................................18
   INCORRECT GRANT CLOSEOUT DATA USED IN ACCOUNTS PAYABLE MODEL
   TO WRITEDOWN FY 2000 PAYABLES.............................................................................18
   FINDING NO. 5 .......................................................................................................................18
   RECOMMENDATION NO. 10...............................................................................................19
   CHAPTER 6 ............................................................................................................................20
   IMPROVEMENTS NEEDED IN INFORMATION TECHNOLOGY SECURITY AND
   CONTROLS.............................................................................................................................20
   FINDING NO. 6 .......................................................................................................................20
   FINDING NO. 7 .......................................................................................................................21
   CHAPTER 7 ............................................................................................................................23
   CONTROLS IN THE AMA SYSTEM DO NOT PREVENT UNAUTHORIZED
   ADJUSTMENTS TO STATE FSP ISSUANCE DATA.......................................................23
   FINDING NO. 8 .......................................................................................................................23
   CHAPTER 8 ............................................................................................................................25
   STATE PROCEDURES FOR REVIEWING EBT SYSTEM ACCESS NEED
   STRENGTHENING.................................................................................................................25
   FINDING NO. 9 .......................................................................................................................25
   CHAPTER 9 ............................................................................................................................27
   SAS 70 RESOLUTION PROCEDURES NEED TO BE ESTABLISHED........................27
   FINDING NO. 10.....................................................................................................................27
   RECOMMENDATION NO. 11...............................................................................................28
   RECOMMENDATION NO. 12...............................................................................................28
REPORT OF THE OFFICE OF INSPECTOR GENERAL ON COMPLIANCE WITH
LAWS AND REGULATIONS....................................................................................................30
FINDINGS AND RECOMMENDATIONS................................................................................32
   CHAPTER 10..........................................................................................................................32
   FOOD STAMP PROGRAM DEBT NOT ALWAYS PURSUED IN COMPLIANCE WITH
   THE DEBT COLLECTION IMPROVEMENT ACT .............................................................32

USDA/OIG-A/27401-20-Hy                                                                                                        Page vii
   FINDING NO. 11.....................................................................................................................32
ABBREVIATIONS......................................................................................................................35




USDA/OIG-A/27401-20-Hy                                                                                                     Page viii
                                             TABLE OF CONTENTS


FOOD AND NUTRITION SERVICES’S FISCAL YEAR 2000
 FINANCIAL STATEMENTS (Prepared by FNS)

MANAGEMENT DISCUSSION AND ANALYSIS FOR FISCAL YEAR 2000................... 1
     THE AGENCY’S MISSION AND ORGANIZATIONAL STRUCTURE......................... 1
     FNS’ PERFORMANCE GOALS AND RESULTS .......................................................... 2
     FOOD STAMP PROGRAM ............................................................................................... 4
     CHILD NUTRITION PROGRAMS...................................................................................10
     THE SUPPLEMENTAL NUTRITION PROGRAM FOR WOMEN,
       INFANTS, AND CHILDREN......................................................................................13
     COMMODITY ASSISTANCE PROGRAMS ..................................................................15
     THE FNS WORKFORCE.................................................................................................15
     FINANCIAL STATEMENTS ............................................................................................16
     SYSTEMS, CONTROLS, AND LEGAL COMPLIANCE..............................................16

SUPPLEMENTAL INFORMATION FOR FISCAL YEAR 2000 OPERATIONS .............21
  INTRODUCTION ...............................................................................................................21
    FOOD STAMP PROGRAM...............................................................................................21
    CHILD NUTRITION PROGRAMS....................................................................................23
    SPECIAL SUPPLEMENTAL FOOD PROGRAM FOR WOMEN,
        INFANTS, AND CHILDREN ........................................................................................28
    COMMODITY ASSISTANCE PROGRAMS ...................................................................30
BALANCE SHEET ..................................................................................................................32
STATEMENT OF NET COST................................................................................................33
STATEMENT OF CHANGES IN NET POSITION...............................................................34
STATEMENT OF FINANCING..............................................................................................35
STATEMENT OF BUDGETARY RESOURCES.................................................................36
NOTE 1 – SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES..........................37
NOTE 2 – FUND BALANCES WITH TREASURY...........................................................41

USDA/OIG-A/27401-20-Hy                                                                                                   Page ix
NOTE 3 – ACCOUNTS RECEIVABLE..............................................................................43
NOTE 4 – OTHER ASSETS................................................................................................43
NOTE 5 – GENERAL PROPERTY, PLANT, AND EQUIPMENT..................................44
NOTE 6 – ACCOUNTS PAYABLE ....................................................................................44
NOTE 7 – OTHER LIABILITIES.........................................................................................44
NOTE 8 – LEASE LIABILITIES..........................................................................................45
NOTE 9 – UNEXPENDED APPROPRIATIONS ..............................................................46
NOTE 10 – CONTINGENCIES AND COMMITMENTS...................................................46
NOTE 11 – SUPPORTING SCHEDULE FOR THE STATEMENT
             OF NET COST............................................................................................47
NOTE 12 – EARNED REVENUES.....................................................................................50
NOTE 13 – TOTAL COST AND EARNED REVENUE BY BUDGET
             FUNCTIONAL CLASSIFICATION ..........................................................51
NOTE 14 – DISCLOSURES RELATED TO THE STATEMENT OF
             CHANGES IN NET POSITION.................................................................52
NOTE 15 – DISCLOSURES RELATED TO STATEMENT OF
            BUDGETARY RESOURCES ....................................................................52
NOTE 16 – DISCLOSURES NOT RELATED TO A SPECIFIC
            STATEMENT...............................................................................................54
REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION................................55
REQUIRED SUPPLEMENTARY INFORMATION..............................................................56




USDA/OIG-A/27401-20-Hy                                                                                         Page x
                  UNITED STATES DEPARTMENT OF AGRICULTURE
                                 OFFICE OF INSPECTOR GENERAL

                                      Washington D.C. 20250




       REPORT OF THE OFFICE OF INSPECTOR GENERAL

TO:    George A. Braley
       Acting Administrator
       Food and Nutrition Service


We have audited the accompanying Principal Statements (Balance Sheet; and Statements
of Net Cost, Changes in Net Position, Budgetary Resources, and Financing; hereinafter
referred to as financial statements) and Required Supplementary Stewardship Information
of the Food and Nutrition Service (FNS), an agency within the U.S. Department of
Agriculture (USDA), as of and for the year ended September 30, 2000. These financial
statements are the responsibility of FNS' management. Our responsibility is to express an
opinion on these financial statements based on our audit.

We conducted our audit in accordance with generally accepted auditing standards; the
standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States; Office of Management and Budget
(OMB) Bulletin 01-02, Audit Requirements for Federal Financial Statements; and other
OMB bulletins applicable to the period under audit. Those standards require that we plan
and perform the audit to obtain reasonable assurance about whether the financial
statements are free of material misstatement. An audit includes examining, on a test
basis, evidence supporting the amounts and disclosures in the financial statements. An
audit also includes assessing the accounting principles used and significant estimates
made by management, as well as evaluating the overall financial statement presentation.
We believe that our audit provides a reasonable basis for our opinion.

In our opinion the financial statements referred to above, including the accompanying
notes, present fairly in all material respects, in accordance with generally accepted
accounting principles, the assets, liabilities, and net position as of September 30, 2000; as
well as its net costs, changes in net position, budgetary resources, and reconciliation of
net costs to budgetary obligations for the year then ended.

Our audit was conducted for the purpose of forming an opinion on FNS' financial
statements taken as a whole. The information in the Overview and Supplemental


USDA/OIG-A/27401-20-Hy                                                               Page 1
Information sections are not a required part of the financial statements but are
supplementary information required by OMB Bulletin 97-01, as amended, Form and
Content of Agency Financial Statements. We have applied certain limited procedures
regarding the methods of measurement and presentation of the supplementary
information. However, we did not audit the information and express no opinion on it.

As discussed in Notes 1D and 3, the largest component of non-Federal accounts
receivable consists of food stamp recipient claims. States establish claims against
households to recover overissued food stamp benefits and report to FNS on this activity.
State systems have been determined to be unreliable; accordingly, FNS does not know
the balance of the gross accounts receivable, nor does it know the related bad debt
(uncollectible receivables) expense. The Federal Accounting Standards Advisory Board
(FASAB) permits Federal entities to estimate its accounts receivable and FNS has
developed an estimate of about $1.1 billion based upon its quality control system (which
projects overissuances.) Related bad debts are anticipated to be a significant portion of
this amount but cannot be reasonably quantified. As a result, this expense is not
separately reported on the Statement of Net Cost, but is included in the cost of the FSP.

We have also issued a report on FNS' internal controls, which cites 10 reportable internal
control weaknesses, and a report on FNS' compliance with laws and regulations, which
cites 1 instance of noncompliance with laws and regulations.

This report is intended solely for the information of the management of FNS, USDA, OMB,
and Congress, and is not intended to be and should not be used by anyone other than
these specified parties. We caution that misstatements, losses, and noncompliance may
occur and not be detected by the testing performed and that such testing may not be
sufficient for other purposes.


/S/

ROGER C. VIADERO
Inspector General

January 19, 2001




USDA/OIG-A/27401-20-Hy                                                            Page 2
                  UNITED STATES DEPARTMENT OF AGRICULTURE
                                 OFFICE OF INSPECTOR GENERAL

                                     Washington D.C. 20250




    REPORT OF THE OFFICE OF INSPECTOR GENERAL ON
            INTERNAL CONTROL STRUCTURE

We have audited the Principal Statements (hereinafter referred to as financial statements)
and Required Supplementary Stewardship Information of the Food and Nutrition Service
(FNS) as of and for the year ended September 30, 2000, and have issued our report
thereon, dated January 19, 2001. We conducted our audit in accordance with generally
accepted auditing standards; the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States;
Office of Management and Budget (OMB) Bulletin 01-02, Audit Requirements for Federal
Financial Statements; and other OMB bulletins applicable to the period under audit.

In planning and performing our audit, we considered FNS' internal control over financial
reporting by obtaining an understanding of the agency's internal controls, determined
whether these internal controls had been placed in operation, assessed control risk, and
performed tests of controls in order to determine our auditing procedures for the purpose
of expressing our opinion on the financial statements, therefore, we do not provide
assurance on the internal control over financial reporting. Consequently, we do not
provide an opinion on internal controls.

   MANAGEMENT’S RESPONSIBILITY FOR INTERNAL CONTROL STRUCTURE

The management of FNS is responsible for establishing and maintaining an internal
control structure. In fulfilling this responsibility, estimates and judgments made by
management are required to assess the expected benefits and related costs of internal
control structure policies and procedures. One objective of an internal control structure is
to provide management with reasonable, but not absolute, assurance that assets are
safeguarded against loss from unauthorized use or disposition. The other objective is that
transactions are executed in accordance with management's authorization and recorded
properly to permit the preparation of financial statements in accordance with the agency's
prescribed basis of accounting. Because of inherent limitations in any internal control
structure, errors or irregularities may nevertheless occur and not be detected. Also,
projection of any evaluation of the structure to future periods is subject to the risk that
procedures may become inadequate because of changes in conditions or that the
effectiveness of the design and operation of policies and procedures may deteriorate.


USDA/OIG-A/27401-20-Hy                                                              Page 3
In its fiscal year (FY) 2000 Federal Managers' Financial Integrity Act (FMFIA ) report, FNS
reported that its management controls provided reasonable assurance that its control
objectives had been met except for certain continuing material weaknesses. Significant
management weaknesses reported included: (1) The need for more intensive on-site
review of administrative costs claimed for reimbursement by State agencies administering
the Food Stamp Program (FSP) and Special Supplemental Nutrition Program for Women,
Infants, and Children (WIC); (2) the need for more detailed guidance and more intensive
oversight from FNS of the State agencies administering the WIC program in the area of
food delivery systems management; (3) the participation by authorized retailers in illegal
transactions involving the exchange of food stamps for cash, drugs, weapons, or other
felony-level ineligible items; (4) the need for strengthened FNS procedures for
establishing, recording, adjusting, collecting, and reporting on FSP recipient claims; (5) the
overissuance of program benefits by State agencies administering the FSP at a rate
exceeding established tolerances; (6) the need to strengthen the management and
monitoring of weaknesses in the Child and Adult Care Food Program; (7) the need to
increase oversight of State automated systems development; (8) FNS’ inability to
adequately measure and assess program performance, and to develop and test potential
program changes to address emerging problems; and (9) a potential problem with the
integrity of determinations of household eligibility for free and reduced-price meals in the
National School Lunch and Breakfast Programs.

For the purpose of this report, we have classified the significant internal control structure
policies and procedures in the following categories.

•      Grants and Transfers - is composed of FSP coupons and electronic benefits
       transfer (EBT) issuance, and letter of credit (LOC) drawdown activity for all other
       programs including Child Nutrition Programs (CNP), WIC, and FSP administrative
       costs. Grants consists of methods and records established to identify, assemble,
       classify, and record transactions used by FNS personnel to report the grant
       operating program expenses and unliquidated obligations.

•      Commodities - includes transactions related to the planning, ordering, purchasing,
       storing, delivering, monitoring, and funding of commodities.

•      Budget Execution and Funds Control - consists of policies and procedures
       associated with the receipt of annual appropriations, the distribution of funds to
       allowance holders, the commitment and obligation during spending actions, and
       issuance of budgetary reports to OMB and the U.S. Department of the Treasury
       (Treasury).

•      Fund Balance with Treasury - consists of the aggregate amount of FNS' accounts
       with Treasury for which FNS is authorized to make expenditures and pay liabilities.
       This category consists of policies and procedures associated with establishing,
       recording, and maintaining the amount of disbursements and collections.



USDA/OIG-A/27401-20-Hy                                                                Page 4
•      Accounts Receivable - consists of policies and procedures associated with
       establishing, recording, collecting, and maintaining records of food stamp claims.

•      Accounts Payable - consists of policies and procedures associated with
       establishing, recording, and maintaining unliquidated balances at year-end.

•      Food Stamp Issuance/Redemption - consists of policies and procedures associated
       with the printing, shipping, issuing, and accounting for unissued food stamp
       coupons. This category also encompasses the redemption of food stamp benefits
       at retailers, the accounting for this by FNS, and the application of the redemption
       amount to FNS' account at Treasury.

•      Integrity of Agency Financial Management System (AFMS) Data - includes policies
       and procedures to ensure the accuracy and reliability of FNS' financial information
       such as transaction testing, comparing FNS' financial data to external reports, and
       the testing of closed accounts.

•      Federal Managers' Financial Integrity Act - consists of policies and procedures
       which require agencies to establish internal accounting and administrative controls
       in accordance with standards established by the Comptroller General.

•      Compliance with Laws and Regulations - includes compliance with laws and
       regulations for transactions and events that may have a material effect on the
       financial statements.

•      Financial Reporting - includes policies and procedures associated with the
       culmination of financial transactions that have been summarized and posted to the
       general ledger and aggregated in the five financial statements.

•      Performance Measures – consists of policies and procedures associated with
       recording and accounting for data supporting reported performance measures to
       permit reliable and complete performance information.

For each of the internal control structure categories listed above, we obtained an
understanding of the design of relevant policies and procedures and whether they had
been placed in operation. We assessed control risk and performed tests of FNS' internal
control structure.

In making our risk assessment, we considered FNS' FMFIA report as well as our prior and
current audit efforts and other independent auditor reports on financial matters and internal
accounting control policies and procedures. We agree with FNS' FMFIA conclusions of
general compliance with Section 2, Management Accountability and Control, and
Section 4, Financial Management Systems.




USDA/OIG-A/27401-20-Hy                                                               Page 5
Our consideration of the internal control over financial reporting would not necessarily
disclose all matters in the internal control over financial reporting that might be reportable
conditions. Under standards issued by the American Institute of Certified Public
Accountants, reportable conditions are matters coming to our attention relating to
significant deficiencies in the design or operation of the internal control that, in our
judgment, could adversely affect the agency's ability to record, process, summarize, and
report financial data consistent with the assertions by management in the financial
statements. Matters involving the internal control and its operation that we consider to be
reportable conditions are presented in the "Findings and Recommendations" section of
this report.




USDA/OIG-A/27401-20-Hy                                                                Page 6
                  FINDINGS AND RECOMMENDATIONS


 CHAPTER 1              CONTROL WEAKNESS RELATED TO ACCOUNTS
                        RECEIVABLE, FOOD STAMP RECIPIENT CLAIMS,
                                   CONTINUE TO EXIST

                                            FNS has not corrected its internal control
            FINDING NO. 1                   weakness related to food stamp recipient
                                            claims (gross accounts receivable, non-
                                            Federal) although corrective actions have been
initiated. The weakness, as reported in FNS’ FY 2000 Federal Managers’ Financial
Integrity Act (FMFIA) report, indicates that agency procedures for establishing, recording,
adjusting, collecting, and reporting on claims need strengthening and program funds are
lost when claims are not established timely and vigorously pursued. The status of
corrective actions and FNS’ reliance on State systems to report complete and accurate
data, however, is not reported consistently in its internal claims status report, the FY 2000
FMFIA report, and the FY 1999 Annual Program Performance Report (Performance
Report). Also, FNS is not using all available data to monitor and report the status of State
corrective actions. As a result, adequate State claims systems and processes are not in
place to ensure that Federal funds spent in violation of FSP regulations are recovered and
returned to the program to improve program operations. Also, FNS cannot report
complete, accurate, and supportable gross accounts receivable, non-Federal, data. The
FSP accounts receivable accounting and reporting weakness has been reported in FNS’
financial statements audit reports since FY 1991.

The Federal Accounting Standards Advisory Board permits Federal entities to estimate
accounts receivable. In FY 1998, the Office of Inspector General (OIG) and FNS resolved
the opinion qualification for gross accounts receivable, non-Federal. FNS disclosed in a
footnote to the financial statements the magnitude of invalid food stamp recipient
payments and its impact on reported program expenditures, including that bad debt
expense cannot be reasonably quantified. Both the U.S. General Accounting Office and
the OMB accepted this approach. However, material financial and compliance control
weaknesses continue to exist.

In response to prior audit recommendations, between FYs 1997 and 1999, FNS
completed reviews, or States performed a self-assessment, of State claims systems
(Guam and Arizona have not yet been reviewed in one or more claims management
areas). For each State where the reviews determined that the claims systems were
deficient and could not report reliable data, a corrective action plan was developed. FNS
regional offices monitor, and periodically report to the national office, the status of State

USDA/OIG-A/27401-20-Hy                                                               Page 7
corrective actions.     FNS has established September 2001 as the deadline for
implementation of all corrective action plans.

FNS’ latest claims status report, as of June 2000, reported that 24 States representing
46 percent of the FSP issuance have been identified with claims systems that can report
accurate, complete, and supportable information. Although FNS has identified claims
reporting as a weakness in its annual FMFIA reports, FNS reported contradictory
information in its FY 1999 Performance Report. In accordance with the Government
Performance and Results Act of 1993, FNS issued its Annual Program Performance
Report in March 2000. Goal 1 of the plan, Enhanced Food and Nutrition Security for Low-
Income Americans had 10 performance goals; one of which related to claims collections.
In the Performance Report, FNS reported the source of its performance data as follows:
“The claims establishment and collection data is taken from reports (FNS-209 Reports)
submitted to FNS by States quarterly, and subject to review for consistency by FNS. The
agency has good confidence in the quality and reliability of this data.” (Emphasis added.)
We disagree that the data reported on the FNS-209 is reliable, complete, and supportable.

We also found that FNS did not use all available data to monitor and report the status of
State corrective actions. For example, the information for Florida reported by the FNS
regional office was based on a review conducted in 1997 and did not include the
conditions reported in an audit conducted by the State of Florida. This State audit report,
dated February 4, 2000, disclosed deficiencies in the State system that directly impacted
the accuracy and validity of the FNS-209 report. Also, eight 1998 State Single Audit
reports had findings related to the States’ inability to reconcile the FNS-209 report or
computer systems maintaining the claims accounting system. Although the Single Audit
report for Hawaii reported deficiencies in the State claims system, FNS reported that
Hawaii had a valid FNS-209 system and did not identify any problems (this conclusion was
based on a self-assessment completed by the State in October 1998).

Using all information available to FNS, we determined that 23 State agencies representing
45 percent of the FSP issuance have been identified with claim systems that can report
accurate, complete, and supportable information. FNS also reported that 27 States have
corrective action plans in place to address reported deficiencies.
                                                                                  1
In response to our prior audit recommendations, FNS issued regulations to improve
claims management in the FSP, while providing State agencies with increased flexibility in
its efforts to increase claims collections. The rule incorporates Federal debt management
regulations and statutory revisions into recipient claims management and provides State
agencies with additional tools to facilitate the establishment, collection, and disposition of
recipient claims. The rule is expected to provide the guidance States need to implement
claims systems that provide accurate, complete, and supportable information.



1
    Title 7 Code of Federal Regulations, Parts 272 And 273, dated July 6, 2000.

USDA/OIG-A/27401-20-Hy                                                                Page 8
FNS needs to continue to monitor and validate State implementation of corrective action
plans. Also, FNS needs to use all available information to monitor and report the status of
State corrective actions in its internal and external reports.

FNS agreed to strengthen its monitoring and reporting of single audit findings relating to
State claims systems. FNS also agreed that all reports involving the FNS-209, beginning
with the Performance Report due March 2001, will be consistent with financial reporting
and FMFIA control weaknesses.

                                          Develop procedures to ensure that all available
                                          information is considered in monitoring and
   RECOMMENDATION NO. 1                   reporting the progress of States in correcting
                                          deficiencies in State claims systems.

                                       Develop controls to provide consistent and
                                       accurate information in internal and external
   RECOMMENDATION NO. 2                reports. Ensure that FNS’ reliance on State
                                       claims systems to provide reliable data is
reported in the FY 2000 Annual Program Performance Report, due March 2001,
consistent with management’s representations for financial reporting, as well as FMFIA
control weaknesses.




USDA/OIG-A/27401-20-Hy                                                             Page 9
    CHAPTER 2                          FEDERAL AND NON-FEDERAL COSTS AND
                                  LIABILITIES WERE MISCLASSIFIED DUE TO USE OF
                                     INCORRECT BUDGET OBJECT CLASS CODES

                                           Federal and Non-Federal costs and liabilities
           FINDING NO. 2                   were misclassified in the Agency Financial
                                           Management       System      (AFMS)     because
                                           incorrect budget object class codes were used
to record transactions. Also, three transactions for about $1.55 million had not been
properly classified as Federal payables and recorded in the appropriate general ledger
account. The budget object class code was not validated during data reconciliation or
second party review processes. Second party review was impaired because neither the
transaction input form nor output report (daily posting) contained a field documenting the
budget object class code. Also, there is a lack of proper separation of duties because the
same individual codes, inputs, reconciles, and validates data relating to contract
obligations and expenditures. As a result, over 3,700 accounting adjustments totaling over
            2
$51 million had to be made to properly classify costs and payables on FNS’ financial
statements. Additionally, FNS made accounting adjustments to obligations totaling almost
$46 million to ensure that future expenses will be applied to the correct line items on the
Statement of Net Cost.

 Federal agencies are required to comply with the standards in OMB Bulletin A-11, dated
July 2000, to provide Congress a realistic cost estimate for each program. OMB A-11
details the budget classification codes that are to be used to properly classify costs and
provide support for accomplishment of plans for management improvement in the areas of
integrity and controls, cash management, financial systems, and financial reporting.
Proper classification of costs is necessary to provide a fair presentation in agency budget
requests and on agency financial statements.

OMB Bulletin 97-01, Form and Content of Agency Financial Statements, as amended,
requires the reconciliation of transactions occurring between two different Federal
agencies to enable the preparation of the consolidated financial statements at the
departmental, as well as the governmental level. The Department of Treasury’s Financial
Management Service Financial Standards and Reporting procedures, dated
September 29, 2000, state that for elimination purposes, each agency is responsible for
establishing an internal control structure for its financial transactions including initiating,
executing, recording, reconciling, and reporting procedures.

FNS’ accounting system is structured to identify transactions with other Federal agencies
through vendor and subobject class code classification. In FY 1999, FNS also established
a general ledger account for Federal payables to facilitate the identification of Federal

2
    This amount is conservative because the transactions would affect multiple accounts.

USDA/OIG-A/27401-20-Hy                                                                     Page 10
trading partners. AFMS procedure 206, AFMS Data Entry, dated February 1997, requires
that adequate internal controls be established that would reasonably ensure correct data is
entered into AFMS. AFMS 206 also requires that a supervisor or designated official
review the AFMS 960, Report of Daily Postings. The Accounting Division also performs a
quarterly reconciliation of the AFMS 208, Report on Contract/Purchase Order Obligations
with data recorded in AFMS. This reconciliation, however, does not include validation of
the budget object class code classification.

As part of our control testing, we statistically sampled Operating Program Expenses. We
found that an expense for a service contract was incorrectly assigned a budget object
class code that designated it as a cost associated with a grant. This error would cause the
cost to be reported on the Non-Federal, Grants and Transfers, line item on the Statement
of Net Cost, rather than on the Other Program (i.e., service) Cost(s) line item.

Through data analysis software, we expanded our testing and identified transactions
coded as a grant cost but lacking a program grant identifier. We also found that Federal
costs were misclassified as Non-Federal costs due to errors in budget object class codes.
These costs were misclassified because the original obligating document had been
improperly coded. Three transactions totaling about $1.55 million were also not identified
as Federal payables because FNS had not recorded them in the general ledger account
established to facilitate the identification of Federal trading partners. These Federal
payables were incorrectly classified as non-Federal transactions. As a result, FNS had to
make accounting adjustments totaling over $51 million to properly classify costs and
liabilities on the Statement of Net Cost and Balance Sheet. Also, obligations totaling
almost $46 million were adjusted to ensure that future expenses will be applied to the
correct line items on the Statement of Net Cost. We reviewed FNS’ support for its
accounting adjustments and confirmed that the budget object class codes were corrected.

We determined that FNS lacked adequate internal controls to ensure the accuracy of
budget object classifications. Input forms and output reports did not contain a data field to
facilitate second party review and data accuracy. Separation of duties and second party
review were not adequate because the same individual codes, inputs, validates, and
reconciles accounting data relating to contract obligations and expenditures. Accounting
personnel assumed all costs and obligations were associated with grants.

FNS has agreed to take the necessary action to strengthen its accounting controls over
the assignment of budget object classification codes. FNS agreed to establish appropriate
control procedures by June 2001. FNS has also revised the Transaction Input Form and
Report of Daily Postings to include budget object class codes.

                                           Assign proper separation of duties when
                                           coding, inputting, reconciling, and validating
   RECOMMENDATION NO. 3
                                           data.




USDA/OIG-A/27401-20-Hy                                                              Page 11
                         Update procedures to establish a process for
                         validating the budget object class codes.
  RECOMMENDATION NO. 4


                         Revise the AFMS Transaction Input Form and
                         AFMS 960, Report of Daily Postings, to include
  RECOMMENDATION NO. 5   a budget object class code.


                         Revise the AFMS 208 Report and require, as
                         part of the AFMS 208 quarterly review, the
  RECOMMENDATION NO. 6   analysis of the assigned budget object class
                         code.




USDA/OIG-A/27401-20-Hy                                        Page 12
 CHAPTER 3              UNLIQUIDATED OBLIGATIONS BY FISCAL YEAR
                         ARE MISSTATED ON EXTERNAL REPORTS TO
                                   TREASURY AND OMB

                                             Unliquidated FSP obligations by fiscal year of
           FINDING NO. 3                     appropriation are misstated on FY 2000
                                             external reports to the Treasury and OMB.
                                             FNS does not have an automated system in
place that provides appropriate fiscal year integrity for reporting the redemption of FSP
benefits delivered via EBT systems. We reported this control weakness in our prior FNS
financial statements audits. Based on prior audit recommendations, FNS performs a
manual calculation to account for EBT redemptions in the proper fiscal year. However, in
FY 2000, FNS’ calculation did not include all of the accounting adjustments reported by
EBT processors to the AMA system. It also included inaccurate data from AMA system
reports and math errors. In addition, FNS management did not perform sufficient followup
to ensure that errors identified during management review were timely corrected. In
FY 2000, FNS adjusted EBT redemptions by fiscal year of obligation by more than
$100.2 million on its external reports to Treasury and OMB. However, because of missing
and inaccurate accounting data, these external reports overstated the FY 2000 FSP
unliquidated obligation balance by more than $26 million and understated the four
preceding fiscal years by a total of the same amount.

We reported in Audit No. 27099-04-Hy, Implementation of the Account Management
Agent System, dated September 1997, the AMA system provided inaccurate budgetary
accounting because FNS developed inadequate design requirements for the system. The
AMA system can, however, provide FNS with an automated funds control capability;
benefit issuance and redemptions can be tracked by fiscal year of issuance.

As designed, the AMA system allows prior fiscal year funds to be used for current year
expenditures; which is a violation of Federal appropriation law. As a result, beginning in
FY 1997, FNS began recording a yearend accounting adjustment to properly account for
FSP redemptions by fiscal year. In response to our prior audit, FNS stated that changes to
existing States’ EBT systems and the Federal Reserve Bank (FRB) operated AMA system
would be too costly. Instead, FNS would propose language in its appropriation bill that
would permit the agency to fully liquidate prior year’s FSP obligations before charging
expenditures in the current year. In FY 1999, FNS was unsuccessful in incorporating
language in the Food Stamp Act to exempt it from being required to record EBT FSP
benefit costs against the year of obligation. During FY 2000, FNS performed a
cost-benefit analysis, as recommended by OIG, to determine the cost and feasibility of
implementing States’ EBT and AMA system enhancements. FNS determined that it would
cost approximately $120 million to upgrade the existing EBT systems (OIG has not
evaluated the basis for this estimate). Therefore, in the FY 2002 budget request, FNS
requested either approval to make FSP funds no-year funds, thereby, eliminating the need

USDA/OIG-A/27401-20-Hy                                                            Page 13
to perform the fiscal year integrity calculation, or additional funding to implement
enhancements in States’ EBT systems and the AMA system.

Through FY 2000, FNS used a manual monthly activity report prepared by the FRB from
AMA system data to perform the fiscal year integrity calculation. The monthly activity
report contained monthly issuance, redemptions, returns–coupons, returns–other, and
expungements. However, until FY 2000, this report did not contain adjustments, such as
refunds made by the EBT processor or other manual overrides made by the FRB, to
correct reporting discrepancies. The FRB provides this information to FNS through the
AMA/AFMS interface. FNS, however, did not use these accounting adjustments in its
fiscal year integrity calculation for FY 1999. We also identified questionable negative
monthly obligation balances that were the result, in part, of not including the refunds made
by EBT processors in the calculation. FNS staff indicated that they researched why these
negative balances occurred, however, they did not include the refunds in the fiscal year
integrity calculation. We could not obtain an explanation for this omission. These refund
amounts totaled over $26.3 million in FY 1999.

In addition to the missing accounting adjustments noted above, we identified other errors
in transferring AMA system data to the fiscal year integrity calculation and math errors.
We found no evidence of supervisory review. FNS management stated that a supervisory
review of the fiscal year integrity calculation was performed and they identified errors but
failed to perform sufficient followup to ensure that all corrections were made prior to
processing the reports to Treasury and OMB.

FNS has advised that the deadline for submitting revised FY 2000 reports to Treasury and
OMB has passed. Therefore, FNS needs to correct its errors in prior fiscal year ending
obligated and unobligated balances when preparing its 2001 external reports. During
FY 2000, the FRB developed an automated report containing all AMA system activity,
including accounting adjustments. Therefore, the errors noted in FY 2000 should be
minimized in future years.

FNS agreed to strengthen controls over the supervisory review process to ensure that
errors are detected and timely corrected. FNS will also correct the errors noted for
FY 2000 and report accurate information in its FY 2001 external reports to Treasury and
OMB.

                                           Implement procedures to ensure that data used
                                           in the fiscal year integrity calculation is
   RECOMMENDATION NO. 7                    complete and consistent with the data recorded
                                           in the AMA system.




USDA/OIG-A/27401-20-Hy                                                             Page 14
                         Perform and document supervisory review of
                         the fiscal year integrity calculation and ensure
  RECOMMENDATION NO. 8   errors are corrected.


                         Revise the FY 2000 fiscal year integrity ending
                         balances to ensure that external reports to
  RECOMMENDATION NO. 9   OMB and Treasury for FY 2001 are accurate.




USDA/OIG-A/27401-20-Hy                                          Page 15
    CHAPTER 4                           CONTROLS OVER STATE REPORTED
                                     EXPUNGEMENT DATA NEED IMPROVEMENT

                                           FNS has not established adequate controls to
           FINDING NO. 4                   evaluate the reasonableness of State reported
                                           data on FSP benefits that are no longer eligible
                                           for use by recipients (expunged benefits). In
FYs 1999 and 2000, States reported to FNS almost $61.7 million and $98 million,
respectively, in expunged FSP benefits. Based on historical data, FNS has determined
that approximately one percent of all FSP benefits are not redeemed. In FYs 1999 and
2000, we identified $2.5 million and $10.7 million, respectively, in expunged data that was
inconsistent with historical trends. FNS does not review State reported expungement data
for reasonableness. Expungement data reduces obligations recorded in FNS’ accounting
system. If expungement data is not properly reported, FSP obligations could be
misstated. As a result, the FSP obligation balance in AFMS, as of September 30, 2000,
could be misstated by more than $13.2 million.
                        3
FNS regulations require States to expunge benefits that are not accessed by the
household after a period of one year unless a waiver is approved for a shorter duration.
Based on historical data, we expected reported expungement amounts in the current year
to fall into the range of one-half to one and one-half percent of total FSP benefits issued in
the prior year. Using this percentage range, we compared FY 1999 FSP benefit issuance
                                            4
data to FY 2000 expunged benefit data and identified several States that reported an
unreasonable amount of expunged benefits or reported no expunged benefits. Included in
this assessment were all States that issued FSP benefits in FY 2000, including one State
that we did not expect to expunge FSP benefits because its EBT system had not operated
for at least one year.

For the FY 1999 reporting period, we identified questionable data reported by 22 States
that was not consistent with historical trends (2 did not report any expunged data,
10 reported less than the historical trend, and 10 reported more). For FY 2000, our
analysis identified 15 States that reported questionable data (1 did not report any
expunged benefits, 8 reported less than historical trends, and 6 reported more). Of the
15 States reporting questionable data in FY 2000, 9 were also identified as reporting
questionable data in FY 1999. FNS could not explain this anomaly.




3
    7 CFR Part 274.12(f)(7)(ii), January 1, 1996.
4
    For FY 1999, we compared FY 1998 FSP issuance data to FY 1999 expungement data.

USDA/OIG-A/27401-20-Hy                                                                Page 16
OIG reported this condition in Audit No. 27099-11-Hy, EBT System National Oversight,
dated January 2001. OIG recommended that FNS implement a system to review reported
expungement data for reasonableness. FNS concurred with our recommendation and has
begun to develop internal procedures for systematic review of reported expungement data.
Therefore, OIG is not making any additional recommendations.




USDA/OIG-A/27401-20-Hy                                                         Page 17
 CHAPTER 5              INCORRECT GRANT CLOSEOUT DATA USED IN
                        ACCOUNTS PAYABLE MODEL TO WRITEDOWN
                                   FY 2000 PAYABLES

                                            FNS incorrectly calculated the accounts
           FINDING NO. 5                    payable writedown for WIC for FY 2000. Net
                                            adjustments totaling $19,742,992 made by FNS
                                            during the WIC closeout process were not
included in the accounts payable model. Management did not perform sufficient followup
to ensure that errors identified during supervisory review were corrected in the model. As
a result, FNS had to make adjustments to seven line items on the Balance Sheet and
Statements of Net Cost, Changes in Net Position, and Financing.

FNS issues grants to States for food assistance programs that include the Child Nutrition
Programs, WIC, Administrative Costs for the Food Stamp Program, Commodity
Assistance Programs, and Food Donations Program. States submit monthly expenditure
reports to FNS. At fiscal year end, States report program funds (obligations) estimated to
be expended for the current grant. The grant expenditure closeout process, performed at
FNS Regional Offices, does not occur until 3 to 9 months after the end of the fiscal year,
depending on the type of grant. Because FNS does not know the exact amount of funding
needed by its grantees until the grant closeout process is completed, it uses a statistical
model to estimate accounts payable for current year grant obligations, for financial
statement purposes. The model adjusts the current period accounts payable amount
based upon the historical relationship between obligations at the end of the fiscal year and
the actual obligations reported through the closeout process. These adjustments are
made using an account specific factor. The account specific factor for each program is an
average of the difference between actual and estimated obligations divided by estimated
obligations, for the five most recent years (FY 1995 to FY 1999).

We validated the information used to support the FY 1999 account specific factor to prior
year closeout information and identified a difference of $19,742,992 in the amount
reported in the accounts payable model and the Statement of Accounts for WIC. After
researching the difference, FNS determined it inadvertently used the wrong closeout
amount in the accounts payable model.

FNS acknowledged an error was made, recalculated the account specific factor for
FY 1999, and recomputed the WIC accounts payable writedown amount for FY 2000. The
recalculation resulted in an increase in the WIC writedown amount of $4,024,715, which
resulted in a decrease to the Accounts Payable, Non-Federal line item.

Although this error has an immaterial impact on the Accounts Payable, Non-Federal line
item on the Balance Sheet, it did materially impact line items on the Statement of Changes

USDA/OIG-A/27401-20-Hy                                                             Page 18
in Net Position and Statement of Financing [Increase (Decrease) in Unexpended
Appropriations and Other Net Cost Components Not Requiring or Generating Resources
During the Reporting Period, respectively]. Footnotes (1E, 6, 9, 11, 13, and 14) to the
financial statements related to the accounts payable writedown were also impacted by this
error. We recommended, and FNS made, adjustments to the financial statements and the
related footnotes. During FY 2000, FNS wrote down its accounts payable by over
$313 million for financial statements presentation.

In response to our recommendation, FNS agreed to revise its grant closeout procedures
by FY 2001.

                                         Develop procedures to ensure regional office
                                         closeout data included in the accounts payable
  RECOMMENDATION NO. 10                  model is properly validated.




USDA/OIG-A/27401-20-Hy                                                          Page 19
    CHAPTER 6                               IMPROVEMENTS NEEDED IN INFORMATION
                                             TECHNOLOGY SECURITY AND CONTROLS

Our audit of FNS’ security over information technology (IT) resources has disclosed
potentially serious security vulnerabilities and inadequate controls over access to FNS’
computer network and systems. These weaknesses indicate a need for a stronger
IT security program. As technology has enhanced the ability to share information it has
also made it more vulnerable to unlawful and destructive penetration and disruptions. We
believe, unless corrective actions are timely implemented, FNS is at risk that financial and
program data may be compromised.

                                                                     FNS has systems on its network that have
                  FINDING NO. 6                                      potentially serious security vulnerabilities that
                                                                     could impact FNS operations. FNS has not
     VULNERABILITY TESTS                                             secured its network effectively by ensuring that
DISCLOSED NUMEROUS SECURITY                                          the operating systems 5 on its network are free
  WEAKNESSES ON SYSTEMS IN                                           from known security vulnerabilities. These
        FNS’ NETWORK                                                 vulnerabilities, if left uncorrected, could
                                                                     jeopardize the security of FNS’ network and its
                                                                     critical and sensitive data, including financial
                                                                     data.

To conduct our assessment of FNS’ network, at 4 selected locations, we used a
commercial off-the-shelf software product, which is designed to identify vulnerabilities
associated with various operating systems. The software is able to perform over
   6
800 tests for security vulnerabilities on systems that use Transmission Control
Protocol/Internet Protocol.
                                                                                           7
The assessments revealed 982 vulnerabilities: 27 high ; 243 medium; and 712 low. The
high and medium risk vulnerabilities, if left uncorrected, could allow unauthorized users
access to FNS’ network and possibly FNS’ critical and sensitive data. The significant
number of low vulnerabilities can be an indicator of poor system administration.

During our scan of FNS’ systems in its headquarters office, a component of its firewall was
not functioning and was down for 3 weeks, leaving only router filtering to protect its
network. FNS officials took immediate action to correct the problem with the firewall and

5
    (e.g. UNIX and Windows NT).
6
    During our vulnerability scans, we periodically updated our software to include additional discovered vulnerabilities. Not all scans
     conducted may have checked for the more that 800 vulnerabilities that were known at the time of this report.
7
    High risk vulnerabilities are those, which provide unauthorized access to the computer, and possibly the network of computers. Medium
     risk vulnerabilities are those that provide access to sensitive network data that may lead to the exploitation of higher risk vulnerabilities.
     Low risk vulnerabilities are those that provide access to network data that might be sensitive, but is less likely to lead to higher-risk
     exploitation.

USDA/OIG-A/27401-20-Hy                                                                                                               Page 20
has advised us they are taking aggressive action to correct the vulnerabilities we identified.
FNS is also in the process of replacing some of its servers and, therefore, some of the
identified vulnerabilities may be corrected.

Detailed below are a few examples of the high-risk vulnerabilities we disclosed during our
scans of FNS’ systems.

   •   One system was accessible using the inherently insecure File Transfer Protocol.
       On this system, a default account name could be used to gain access to the
       system using this protocol. An attacker could use this vulnerability to place a
       virus or other malicious software that could be executed by a more privileged
       user.

   •   A user account on one system had no password assigned to it, leaving it
       accessible by anyone. Depending on the access privileges on this user account,
       an attacker could use this vulnerability to access this and other computers on the
       network.

   •   One server that was found to have website capabilities also had one or more
       potentially vulnerable scripts. These scripts could be exploited to allow an
       attacker to execute malicious commands on that server.

OIG will recommend in Audit No. 27099-18-Hy, FNS Security of Information Technology
Resources, that FNS take immediate action to eliminate the high and medium risk
vulnerabilities found on its systems, obtain vulnerability scanning software and conduct
scans periodically at FNS headquarters and all field locations where servers are
maintained. Therefore, no additional recommendations are being made.

                                      User identification (ID) and password security,
          FINDING NO. 7               as well as FNS’ process for authorizing
                                      continuing access to financial accounting and
    USER ID’S AND PASSWORD            payment systems, are not always effectively
  MANAGEMENT CONTROLS ARE             managed to ensure individual accountability.
  NOT ADEQUATE IN THREE FNS           This occurred because FNS did not always
             SYSTEMS                  implement appropriate password security
                                      measures or effective procedures for assessing
                                      the continuing need for system access. As a
                                      result, unauthorized individuals could obtain
access to FNS and Treasury systems and modify or destroy sensitive financial and
program information. Our audits to date, however, have not disclosed unauthorized
access or misuse of FNS data.

Active management of user IDs and passwords is a critical control that provides
reasonable assurance that users having a need for system access are properly identified
and authorized. These controls should include requirements that IDs uniquely identify

USDA/OIG-A/27401-20-Hy                                                               Page 21
users, passwords are periodically changed, and passwords contain a range of
alphanumeric characters.8 Agencies should also establish a periodic review to ensure
users have a continuing need for system access.9 We noted the following weaknesses
relating to user IDs and password management.

      •   Security password features have not been implemented in two key FNS systems.

      •   User ID password file for the contractor developed portion of one FNS system is not
          encrypted.

      •   Information Technology Division (the FNS division that has oversight of system
          access) is not always promptly notified when an employee with mainframe access
          separates from the agency.

      •   Financial management system managers did not always timely determine that
          individuals with user IDs had a need for continuing access to AFMS.

      •   Treasury issues shared IDs and passwords for its system applications and they
          have not been changed in several years for one system. Treasury is aware of
          these security issues and plans to issue unique IDs and passwords with
          implementation of GOALS II.

      •   Three mission critical systems do not monitor inactive users.

OIG will recommend in our report, FNS Security of Information Technology Resources,
Audit No. 27099-18-Hy, that FNS implement procedures to address these deficiencies.
FNS officials have advised us that, for one system, new user IDs have been established
and they are in the process of implementing procedures for monitoring inactive users.
Therefore, OIG is not making any additional recommendations.




8
     FNS Handbook 701, Section 302, paragraphs B and F; FNS Handbook 702, Section 104; USDA Departmental Manual 3140-1.1,
    Appendix D, Section 5, 6a, and 6b; National Institute of Standards and Technology (NIST), Practice, 3.11.2.
9
    FNS Handbook 701, Section 302, paragraph G; NIST Practice 3.5.2, NIST Guide for Developing Security Plans.

USDA/OIG-A/27401-20-Hy                                                                                       Page 22
     CHAPTER 7                      CONTROLS IN THE AMA SYSTEM DO NOT PREVENT
                                     UNAUTHORIZED ADJUSTMENTS TO STATE FSP
                                                  ISSUANCE DATA

                                          In our prior 1998 and 1999 financial statements
           FINDING NO. 8                  (Audit Nos. 27401-14-Hy and 27401-17-Hy)
                                          and      Implementation       of   the   Account
                                          Management Agent System (Audit No.
27099-04-Hy, dated September 1997) audits, we identified a control weakness in the AMA
system design that allows EBT processors to adjust reported issuance data without State
knowledge and approval. This vulnerability still exists and is further exacerbated because
FNS policy allows an excessive amount of time for EBT processors to report corrections to
issuance data. Since the advent of EBT, FNS has not revised its regulations 10 that require
States to report issuance data no later than 90 days following the end of the reporting
month. Because of the excessive length of time EBT processors have for making
corrections to data, the AMA system is more vulnerable to unauthorized adjustments.

The Joint Financial Management Improvement Program’s (JFMIP ) Core Financial System
Requirements, dated February 1999, require Federal financial management systems to
collect accurate, timely, complete, reliable, and consistent information.

In response to our prior audits, FNS officials stated that processor adjustments were
caused by data entry errors, as well as untimely entry of daily issuance data and other
EBT processor adjustments. Therefore, FNS implemented batch processing to minimize
discrepancies between State issuance and AMA system data. Also, beginning in
FY 1999, FNS implemented procedures that require States to periodically perform a
reconciliation of daily issuance activity reported to the EBT processor and AMA system.
This should, theoretically, detect unauthorized adjustments by the EBT processors after
the adjustments have already been made. However, this reconciliation, and batch
processing, do not prevent unauthorized adjustments from being posted to the AMA
system. In response to our concerns, FNS also proposed to amend the AMA system
design to prohibit manual adjustments without prior State approval. In November 2000,
FNS officials advised us that they expect to implement this enhancement in January 2001.

While this enhancement will significantly reduce system vulnerability, FNS can also
improve the timeliness of corrections to, and the reporting of, its issuance data by revising
the required deadline for States to submit reports (currently no later than 90 days after the
reporting month). This requirement was put in place when the primary FSP delivery
system was paper-based (coupon issuance system). In the coupon environment, 90 days
was a reasonable length of time because issuance information had to be collected from
numerous field sites, compiled, verified, and then reported by the State to FNS. Ninety

10
     7 CFR Section 274.b (2)(ii).

USDA/OIG-A/27401-20-Hy                                                              Page 23
days in an EBT environment is an unreasonable reporting requirement because EBT
technology can produce daily data. We believe 30 days is a reasonable reporting
requirement because AMA system data shows that corrections can be generally made
within the next calendar month.

OIG recommended in Audit No. 27099-11-Hy, EBT System National Office Oversight,
dated January 2001, that FNS should expedite the implementation of the proposed
enhancement to the AMA system and modify the time period, to a maximum of 30 days,
States and EBT processors have for making corrections to FSP issuance data. In its
response, FNS indicated that the proposed enhancement to AMA is scheduled for
implementation in January 2001. FNS also proposed to allow EBT processors 60 days,
rather than 30 days, for making corrections. We believe this time period is excessive and
increases AMA system vulnerability. Resolution of this issue will be resolved through the
management decision process.          Therefore, OIG is not making any additional
recommendations.




USDA/OIG-A/27401-20-Hy                                                          Page 24
     CHAPTER 8                  STATE PROCEDURES FOR REVIEWING EBT SYSTEM
                                        ACCESS NEED STRENGTHENING

                                          State procedures for reviewing access to EBT
           FINDING NO. 9                  systems need strengthening.       This control
                                          weakness was reported in our prior nationwide
                                          EBT reports (Evaluation No. 27801-03-Hy,
dated September 1996, and Audit No. 27099-11-Hy, dated January 2001). FNS’
corrective actions have not been effective in ensuring the States correct this problem.
State agencies have not always adequately monitored the need for their employees to
have continuing access to EBT systems. State EBT systems are an integral part of FNS’
control structure to record, process, summarize, and report both program and financial
data that is material to FNS’ financial statements. Also, they did not timely terminate
access when employee job duties changed and/or when they were no longer employed.
Although our audits did not detect any unauthorized access to the EBT systems, the
system is vulnerable to misuse because unauthorized access to FSP benefits may not be
prevented or detected.

OIG reported in its prior nationwide EBT report that, in the four States reviewed, EBT
system access procedures needed strengthening. In response to this control weakness,
in March 1997, FNS issued instructions to States that addressed limiting access to the
EBT system, division of responsibilities among those with access, and periodic review of
EBT access. These instructions stated that these procedures were for the States to
consider (emphasis added) when implementing access controls. Since issuance of our
nationwide EBT report in 1996, OIG has reported that seven additional States, or half of
the States reviewed, need to improve controls over access to the EBT system. These
States processed almost $1.9 billion in FSP benefits in FY 2000.

In the seven States reviewed since 1996, OIG identified more than 180 individuals whose
access to State EBT systems should have been removed. OIG found States did not
always perform a periodic review of EBT system users to determine whether access was
still needed, login IDs for terminated employees were deleted, and access to the system
had been removed for those individuals who were either no longer employed or whose
duties and need for access had changed. OIG did not, however, identify any unauthorized
access. In some cases, States had not been provided a report that showed the last
system access date for each authorized user, as required by their EBT contracts.
                           11
FNS regulations       require the State to establish a security plan and appropriate
procedures to protect FSP data and equipment from theft and unauthorized use but they
do not specifically require the State to periodically review system access.


11
     7 CFR 277.18 (p)(2)(ii)(B), dated January 1, 1996

USDA/OIG-A/27401-20-Hy                                                         Page 25
In Audit No. 27099-11-Hy, EBT System National Office Oversight, dated January 2001,
OIG recommended that FNS require States to periodically review system access to
identify those individuals who no longer have a need and immediately delete their access.
In FNS’ response to the report, FNS proposed writing to each EBT and FSP State director,
directing them to tighten existing controls over EBT access, rather than regulating down to
the level of logon ID review. FNS will direct EBT managers to conduct at least semi-
annual access reviews and emphasize the need for these reviews in all regional user
group meetings. OIG accepted this proposed management decision and will make no
additional recommendations.




USDA/OIG-A/27401-20-Hy                                                            Page 26
     CHAPTER 9                      SAS 70 RESOLUTION PROCEDURES NEED TO BE
                                                  ESTABLISHED

                                           FNS needs to develop and implement
          FINDING NO. 10                   procedures to review EBT processor Statement
                                           on Auditing Standards (SAS) 70 examination
                                           reports to 1) determine if they meet regulatory
requirements and 2) ensure timely resolution of identified weaknesses. FNS uses
commercial EBT service organizations (processor) as an integral part of their internal
control structure to record, process, summarize, and report both program and financial
data that is material to FNS’ financial statements. Audit/review followup and resolution
procedures are an important element of a strong internal control structure. Without such
procedures and timely resolution of identified weaknesses, there is reduced assurance
that EBT processors are correcting deficiencies in their control structure that may impact
the reporting of reliable FSP data by FNS. Also, there is a risk that potential material
fraudulent activity may not be detected and prevented.

SAS No. 70, Reports on the Processing of Transactions by Service Organizations,12
provides guidance to auditors performing an audit of a user organization’s (e.g., FNS)
financial statements and procedures at a service organization that will enable them to
issue a report on controls that may effect the user organization. In February 2000, FNS
issued FSP regulations 13 that requires State Agencies administering the FSP to obtain an
annual SAS 70 examination of processors of EBT data. The auditor must issue a report
that addresses controls placed in operation and tests of operating effectiveness at the EBT
processor. The auditor is also to follow the guidance contained in OMB Circular A-133
Single Audit Compliance Supplement, issued March 2000. In addition to the general and
application controls of the EBT processor, specific to the EBT environment, the auditor’s
examination should, in part, cover the following control areas: 1) EBT transactions
received from State authorized sources; 2) transaction amounts and recording thereof;
3) processing; 4) settlement; and 5) reporting. These requirements became effective for
audit periods that began after June 30, 1999.

During FY 2000, 41 States and the District of Columbia issued about $11 billion in FSP
benefits via EBT, which represents over 73 percent of the FSP benefits issued. In
November 2000, FNS designated its Midwest Region as the control point for the review
and resolution of SAS 70 reports. FNS officials have indicated that they are just beginning
to develop procedures for processing these reports, including what steps will be taken to
ensure that adequate corrective actions are timely implemented. Since these reports are
already being issued, FNS needs to expedite its review and resolution process to ensure
that all weaknesses potentially impacting FNS’ financial statements are timely corrected.

12
     AICPA, Professional Standards, vol. 1, AU sec. 324, as amended by SAS No. 78, Consideration of Internal Control in a Financial
     Statement Audit: an amendment to SAS No. 55.
13
     7 CFR Parts 272.1 and 274.12(j).

USDA/OIG-A/27401-20-Hy                                                                                                     Page 27
FNS agreed to develop and implement audit review and resolution procedures for SAS 70
examinations by March 2001. FNS will also designate a cognizant FNS regional office
that will be responsible for reviewing the reports, responding to all recommendations, and
monitoring corrective actions to ensure they are timely implemented.

                                            Expedite the development and implementation
                                            of procedures to ensure SAS 70 examinations
  RECOMMENDATION NO. 11                     meet the requirements of OMB Circular A-133
                                            Compliance      Supplement,      including   the
requirement that the reports cover all States using the processor’s control environment.

                                           Develop audit resolution procedures to ensure
                                           that States require EBT processors to timely
  RECOMMENDATION NO. 12
                                           resolve identified weaknesses.



Material weaknesses are reportable conditions in which the design or operation of one or
more of the specific internal control components does not reduce to a relatively low level
the risk that misstatements, in amounts that would be material in relation to the financial
statements being audited may occur and not be detected within a timely period by
employees in the normal course of performing their assigned functions.

Our consideration of the internal control structure would not necessarily disclose all
matters in the internal control structure that might be reportable conditions and,
accordingly, would not necessarily disclose all reportable conditions that are also
considered to be material weaknesses as defined above. However, we believe the
reportable conditions described in Finding Nos. 1 to 10 are material weaknesses.

In addition, we considered FNS’ internal controls over Required Supplementary
Stewardship Information by obtaining an understanding of the internal controls,
determined whether these internal controls had been placed in operation, assessed
control risk, and performed tests of controls as required by OMB Bulletin 01-02 and not to
provide assurance on these internal controls. Accordingly, we do not provide assurance
on such controls.

Finally, with respect to internal controls related to performance measures reported in the
Overview section, we obtained an understanding of the design of significant internal
controls relating to the existence and completeness assertions, as required by OMB
Bulletin 01-02. Our procedures were not designed to provide assurance on internal
controls over reported performance measures, and accordingly, we do not provide an
opinion on such controls.




USDA/OIG-A/27401-20-Hy                                                             Page 28
This report is intended solely for the information of the management of FNS, USDA, OMB,
and Congress, and is not intended to be and should not be used by anyone other than
these specified parties. We caution that misstatements, losses, and noncompliance may
occur and not be detected by the testing performed and that such testing may not be
sufficient for other purposes.


/S/

ROGER C. VIADERO
Inspector General

January 19, 2001




USDA/OIG-A/27401-20-Hy                                                        Page 29
                 UNITED STATES DEPARTMENT OF AGRICULTURE
                                OFFICE OF INSPECTOR GENERAL

                                     Washington D.C. 20250




    REPORT OF THE OFFICE OF INSPECTOR GENERAL ON
       COMPLIANCE WITH LAWS AND REGULATIONS

We have audited the Principal Statements and Required Supplementary Stewardship
Information of the Food and Nutrition Service (FNS) as of and for the year ended
September 30, 2000, and have issued our report thereon, dated January 21, 2001. We
conducted our audit in accordance with generally accepted auditing standards; the
standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States; Office of Management and Budget
(OMB) Bulletin 01-02, Audit Requirements for Federal Financial Statements, and other
OMB bulletins applicable to the period under audit.

The management of FNS is responsible for complying with laws and regulations applicable
to the agency. As part of obtaining reasonable assurance about whether the agency's
financial statements are free of material misstatement, we performed tests of its
compliance with certain provisions of laws and regulations, noncompliance with which
could have a direct effect on the determination of financial statement amounts and certain
other laws and regulations specified in OMB Bulletin 01-02, as amended, including the
requirements referred to in the Federal Financial Management Improvement Act (FFMIA )
of 1996. We limited our tests of compliance to these provisions and we did not test
compliance with all laws and regulations applicable to FNS.

•     Accounting and Auditing Act of 1950 (Public Law 81-784)
•     Anti-Deficiency Act and Federal Appropriations Law
•     Budget and Accounting Procedures Act of 1950
•     Cash Management Improvement Act of 1990
•     Chief Financial Officers Act of 1990
•     Debt Collection Improvement Act of 1996
•     Federal Financial Management Improvement Act of 1996
•     Federal Managers' Financial Integrity Act of 1982
•     Government Management Reform Act of 1994
•     Government Performance and Results Act of 1993
•     National Defense Authorization Act of 1990
•     Prompt Payment Act of 1990
•     Single Audit Act of 1984 and Amendments of 1996



USDA/OIG-A/27401-20-Hy                                                           Page 30
As part of our audit, we also reviewed management's process for evaluating and reporting
on internal control and accounting systems, as required by the Federal Managers’
Financial Integrity Act of 1982 (FMFIA), and compared FNS' most recent FMFIA reports
with the evaluation we conducted of FNS' internal control structure. We also reviewed and
tested FNS' policies, procedures, and systems for documenting and supporting financial,
statistical, and other information presented in the Overview and Supplemental Information
sections. Providing an opinion on compliance with certain provisions of laws and
regulations was not an objective of our audit and, accordingly, we do not express such an
opinion.

Under the FFMIA, we are required to report whether FNS' financial management systems
substantially comply with the Federal financial management systems requirements,
general accepted accounting principles, and the U.S. Standard General Ledger (SGL ) at
the transaction level. To meet this requirement, we performed tests of compliance using
the implementation guidance for FFMIA included in Appendix D of OMB Bulletin 01-02.
The results of our tests disclosed no instances in which FNS' financial management
systems did not substantially comply with these three requirements.

Material instances of noncompliance are failure to follow requirements, or violations of
prohibitions, contained in law or regulations that cause us to conclude that the aggregation
of the misstatements resulting from those failures or violations is material to the financial
statements, or the sensitivity of the matter would cause it to be perceived as significant by
others. The results of our tests of compliance with the laws and regulations described in
the preceding paragraphs exclusive of FFMIA, disclosed instances of noncompliance that
are required to be reported under Government Auditing Standards and OMB
Bulletin 01-02. They are described in the Findings and Recommendations section that
follows.




USDA/OIG-A/27401-20-Hy                                                              Page 31
                          FINDINGS AND RECOMMENDATIONS


     CHAPTER 10                      FOOD STAMP PROGRAM DEBT NOT ALWAYS
                                      PURSUED IN COMPLIANCE WITH THE DEBT
                                         COLLECTION IMPROVEMENT ACT

                                           FNS has not completed corrective actions to
          FINDING NO. 11                   bring its Food Stamp Program (FSP) debt
                                           collection offset program into compliance with
                                           the Debt Collection Improvement Act (DCIA) of
1996. In our fiscal year (FY) 1999 audit of FNS’ financial statements, 27401-17-Hy, OIG
reported that FNS had not always effectively pursued all FSP recipient claims debt through
the Treasury Offset Program (TOP). FNS was in noncompliance with the DCIA because it
had not developed or implemented alternative procedures for pursuing the debt when the
U.S. Department of the Treasury (Treasury) removed the requirement for the use of an
                                         14
Internal Revenue Service (IRS) address for due-process notice. FNS had to revise its
                    15
program regulations to require States to submit all delinquent debt for offset under TOP.
The regulations were also revised to allow States to use addresses, other than those
maintained by the IRS, to provide the FSP recipient the required due process notification.

Our FY 1999 financial statements audit reported that FNS had not pursued over 521,000
FSP recipient claims totaling almost $339 million for FY’s 1997, 1998 and 1999 because
they did not have an IRS address (the number may be overstated because some of the
same claims may have been submitted more than once, or rejected more than once,
during these periods). Because FNS has not fully implemented the requirements of the
DCIA, in FY 2000, over 187,000 FSP recipient claims totaling almost $124 million
(resubmissions and debt already at Treasury are excluded from the FY 2000 data) have
not been pursued for collection.

The DCIA of 1996, Section 31001(h)(6) requires Federal departments and agencies to
refer all enforceable claims over 180 days delinquent to Treasury for TOP offset. Treasury
             16
regulations provide agencies the flexibility to send the required 60-day notice to an
address other than the IRS provided address. As such, Treasury no longer requires the
use of an IRS provided address, beginning September 28, 1998, the effective date of the
final rule.



14
   An IRS address is the address maintained by the IRS for tax purposes.
15
   Title 7 Code of Federal Regulations (CFR) Parts 272 and 273, dated July 6, 2000.
16
   Title 31 CFR Part 285, dated August 28, 1998.

USDA/OIG-A/27401-20-Hy                                                                Page 32
FSP RECIPIENT DELINQUENT DEBT

FNS has participated in Treasury offset programs, Federal Tax Refund Offset Program
(FTROP) and Federal Salary Offset Program (FSOP ) since 1991, collecting almost
$435 million in FSP recipient claims debt during the period FYs 1992 through 2000. The
TOP predecessor programs, FTROP and FSOP, allowed Federal agencies to only offset
overpayments against Federal tax refunds and Federal salary. The TOP allows Treasury
to offset against most Federal payments (such as benefit and vendor payments), in
addition to Federal tax refunds and salaries.

Under current FNS procedures, States must submit two distinct transmissions to Treasury.
The first is the pre-offset match where FNS forwards State file information on FSP
recipient claims to the IRS, through Treasury. The IRS matches the claims to its database
to determine if the recipient has an IRS address. In order to match, the first four letters of
the last name and the individual’s social security number must agree with the IRS
database. If they do, the IRS provides an address. For those claims that match (i.e., have
an IRS address), States send out the required 60-day notice to the FSP debtor, using the
IRS address, which informs the FSP recipient that FNS plans to collect the delinquent debt
through TOP offset unless the recipient repays the debt, contacts the State to set up a
payment plan, or contests the debt. After sending the required notice to the FSP debtors,
States put these claims in the appropriate file structure for the second transmission to
Treasury and subsequent TOP processing. This second transmission is called the State
certification file.
                                         17
FNS revised regulations allow FNS to develop a standard for addresses that will
maximize the number of notices sent, while ensuring that the addresses are valid.
Currently, FNS has no formalized procedures in place to assist States in pursuing FSP
claims when an IRS address is not obtained, however, several initiatives have been
implemented. FNS is developing a “Standard for Addresses” and has asked its regional
offices to request States to conduct pilot projects using different methodologies for locating
FSP debtor addresses. Once developed, the “Standard for Addresses” will be
incorporated into a handbook for States to use in managing their FSP debt. This
handbook will provide the States the procedures to follow for issuing 60-day notices when
an IRS address is not available. FNS is targeting issuance of the handbook by September
2001.

To date, two States (Washington and Virginia) have initiated pilot projects to develop
alternative processes for obtaining addresses. Discussions are also under way with
Maryland, Pennsylvania, and Delaware to conduct other pilots. Also, FNS provided
evidence that other States (Michigan, Kentucky, South Dakota, North Carolina, California,
Mississippi, and New Jersey) are using additional methods to obtain a valid address. FNS
is also exploring the possibility of using a contractor to search the Internet for FSP debtor



17
     Title 7 CFR Part 273.18, dated July 6, 2000.

USDA/OIG-A/27401-20-Hy                                                               Page 33
addresses when offset referral is returned from Treasury without an IRS address. FNS
plans to implement this pilot program if it is cost effective.

DELINQUENT RETAILER DEBT

In our FY 1999 financial statements audit, OIG also reported that FNS had not referred
                                                                                       18
any delinquent FSP retailer debt for offset under TOP. Although Department regulations
were modified in March 1999 to cover FSP retailers for administrative offset, FNS needed
to issue a notice and new application to retailers advising them of the debt offset
requirement. FNS completed this action in February 2000, and will implement referral of
retailer debt to TOP effective March 2001.

Because corrective actions on prior audit recommendations are in process, we will not
make any further recommendations at this time


This report is intended solely for the information of the management of FNS, USDA, OMB,
and Congress, and is not intended to be and should not be used by anyone other than
these specified parties. We caution that misstatements, losses, and noncompliance may
occur and not be detected by the testing performed and that such testing may not be
sufficient for other purposes.


/S/

ROGER C. VIADERO
Inspector General

January 19, 2001




18
      Title 7 CFR Part 3, dated March 10, 1999.

USDA/OIG-A/27401-20-Hy                                                          Page 34
                                                    ABBREVIATIONS

AFMS
  Agency Financial Management System .................................................................................5
AMA
  Account Management Agent ...................................................................................................iii

CNP
 Child Nutrition Programs ........................................................................................................... i

DCIA
 Debt Collection Improvement Act............................................................................................iv

EBT
 Electronic Benefits Transfer.....................................................................................................iii

FASAB
  Federal Accounting Standards Advisory Board..................................................................... ii
FFMIA
  Federal Financial Management Improvement Act ..............................................................30
FMFIA
  Federal Manager's Financial Integrity Act ..............................................................................4
FNS
  Food and Nutrition Service........................................................................................................ i
FRB
  Federal Reserve Bank............................................................................................................13
FSOP
  Federal Salary Offset Program..............................................................................................33
FSP
  Food Stamp Program ................................................................................................................ i
FTROP
  Federal Tax Refund Offset Program.....................................................................................33
FY
  Fiscal Year .................................................................................................................................. i

GAAP
 Generally Accepted Accounting Principles ............................................................................. i

ID
  Identification.............................................................................................................................21
IRS
  Internal Revenue Service.........................................................................................................iv

USDA/OIG-A/27401-20-Hy                                                                                                              Page 35
IT
     Information Technology..........................................................................................................20

JFMIP
  Joint Financial Management Improvement Program..........................................................23

LOC
  Letter of Credit...........................................................................................................................4

OIG
  Office of Inspector General ......................................................................................................7
OMB
  Office of Management and Budget ......................................................................................... ii

SAS
  Statements on Auditing Standards .......................................................................................27
SGL
  U.S. Standard General Ledger..............................................................................................31

TOP
  Treasury Offset Program..........................................................................................................iv
Treasury
  U.S. Department of Treasury................................................................................................... ii

USDA
 U.S. Department of Agriculture................................................................................................1

WIC
  Special Supplemental Nutrition Program for Women, Infants, and Children ...................... i




USDA/OIG-A/27401-20-Hy                                                                                                          Page 36
Food and Nutrition Service
Management Discussion and Analysis for Fiscal Year 2000




The Agency’s Mission and Organizational Structure
Agency Mission    The Food and Nutrition Service (FNS) was established August 8, 1969, to administer the food
                  assistance programs of the U.S. Department of Agriculture. The Agency mission is to
                  increase food security and reduce hunger in partnership with cooperating organizations by
                  providing children and low-income people access to food, a healthful diet, and nutrition
                  education in a manner that supports American agriculture and inspires public confidence.

FNS Locations     Agency headquarters are in Alexandria, Virginia. FNS maintains seven regional offices.
and Staff         The regional locations are Boston, Massachusetts; Robbinsville, New Jersey; Atlanta,
                  Georgia; Chicago, Illinois; Dallas, Texas; Denver, Colorado; and San Francisco, California.
                  Additionally, as of the close of the fiscal year, the Agency maintained 51 field offices,
                  4 compliance offices, 2 administrative review offices, 13 satellite locations, 1 Caribbean area
                  office and 1 benefit redemption systems branch (Minneapolis, Minnesota). Whenever
                  possible, these additional offices are co-located with one another and with the seven regional
                  offices.

                  During fiscal year (FY) 2000, FNS allocated 1,582 full-time equivalents (FTEs). Of the
                  FTEs, 631 were used in headquarters’ functions and 951 were used in field functions. Of the
                  field FTEs, 670 were used in the seven regional offices. The balance were used in satellite
                  and special purpose field locations.

FNS Programs      Most FNS programs are operated in a Federal/State partnership, with State and local agencies
                  administering the program at the actual service delivery level. The major FNS programs fall
                  into one of two program types: open-ended entitlement (e.g., Food Stamp and National
                  School Lunch programs) or fixed grant (e.g., Special Supplemental Nutrition Program for
                  Women, Infants, and Children [WIC]). Regardless of type, the program funding source is
                  specific, direct appropriation. This has an impact on FNS financial and program performance.
                  In entitlement programs, all persons requesting program benefits and meeting the established
                  eligibility requirements must be served. When the growth of entitlement programs exceeds
                  anticipated levels, it may be necessary to request supplemental appropriations. In fixed grant
                  programs such as WIC, funding levels are set and participation levels must be managed to
                  keep the program within the available budget.

                  FNS is responsible for paying program benefit costs and a portion of State administrative
                  expenses for most food assistance programs, for planning and coordinating the purchase and
                  distribution of commodities to State agencies, and for implementing program statutes through
                  promulgation of regulations and instructions. FNS staff provide training and assistance to
                  State agencies, assure proper funds allocation and control, conduct program monitoring and
                  evaluation, and develop program policy. In a few instances, when State law prohibits a State
                  from disbursing funds to particular types of entities or where no State agency has assumed
                  administrative responsibility, FNS assumes operation of certain child nutrition programs.




Final Version                                                                                          Page 1
 Food and Nutrition Service                                                                   Fiscal Year 2000 MD&A




FNS Funding               Total expenses for FNS programs in fiscal year 2000 totaled $32.4 billion. The Food Stamp
                          Program ($18.5 billion) accounted for 57 percent of the total Agency appropriation while
                          theChild Nutrition programs ($9.08 billion) accounted for approximately 28 percent and the
                          Supplemental Nutrition Program for Women, Infants, and Children ($3.9 billion) accounted
                          for 12 percent. All other programs and Federal administrative costs ($856 million) accounted
                          for the remaining 3 percent.


                                                     FNS Expenses by Program
                                                        WIC      Other
                                                        12%       3%




                                   Child Nutrition
                                        28%                                     Food Stamps
                                                                                   57%




FNS’ Performance Goals and Results

Agency                    The Food and Nutrition Service’s fiscal year 2000 Annual Performance plan is
Strategic Goals           comprised of six strategic goals and three management initiatives derived from the FY 2000
                          Strategic Plan. FNS’ Strategic and Annual Performance Plans were streamlined and
                          re-written for fiscal year 2001. The FY 2001 Annual Performance Plan contains some
                          modifications for the FY 2000 targets. Where these modifications occurred, they are noted in
                          the text.

                          The six strategic goals and three management initiatives for FY 2000 are:

                          Goal 1: Enhanced food and nutrition security for low-income Americans;
                          Goal 2: Healthful diets for school-age children;
                          Goal 3: Improved nutritional status and health of low-income women, infants and
                                    children;
                          Goal 4: Improved nutritional status of children in day-care settings;
                          Goal 5: Low-income children consume nutritious lunches when school meals are not
                                    available;
                          Goal 6: Improved quality of Food Distribution commodities and services;

                          Management Initiative I: Continually improve the quality, effectiveness and diversity
                                                    of the FNS workforce (modified by the 2001 Annual
                                                     Performance Plan);
                          Management Initiative II: Maintain continued fairness in FNS program delivery; and
                          Management Initiative III: Users have accurate, timely, financial data available for
                                                     decision making.




Final Version                                                                                               Page 2
 Food and Nutrition Service                                                                   Fiscal Year 2000 MD&A


                          Ten performance measures for these goals are included in this report. These were chosen as
                          the “vital few” matters that are significant to the managing, budgeting and oversight functions
                          of the Agency as referred to in the Federal Accounting Standards Advisory Board “Standards
                          for Management’s Discussion and Analysis” dated April, 1999. The measures are presented
                          in the following table and then discussed further in the context of program information:

    Strategic Goal/
     Management                        FY 2000 Performance Goal                       Target for     Actual for        Page #
       Initiative                                                                      FY 2000       FY 2000         in MD&A

 Goal 1: Enhanced        Maintain payment accuracy in the delivery of Food
 Food and Nutrition      Stamp Program benefits
 Security for Low-
 income Americans        FSP payment accuracy rate                                        90.5%*         90.12%             7

                         States qualifying for enhanced funding                                  8              6           8
                         Increase claims collections to recover program losses
                         and deter recipients from accepting overpayments
                         Percent of established claims collected
                                                                                            71%*            86%             9
                         State reported claims collected
                                                                                          $215.8*         $214.4            9
                         Maintain baseline number of sanctions against
                         violating stores

                         Number of sanctioned stores                                       1,365*          1,349            9
                         Increase States/Territories issuing benefits by
                         electronic benefits transfer (EBT)

                         Number of States issuing benefits via EBT                              42            42            10
 Goal 3: Improved        States adopt initiatives to contain WIC food costs
 Nutritional Status
 and Health of           Food cost per participant                                         $33.66         $32.94            15
 Women, Infants and
 Children
                         Increased number of State agencies participating in
                         the Farmers Market Nutrition Program

                         Number of States participating in the FMNP                     All States            39            16




Final Version                                                                                                 Page 3
 Food and Nutrition Service                                                                     Fiscal Year 2000 MD&A


 Goal 4: Improved             Increased participation of low-income children in
 Nutritional Status of        CACFP
 Children in Day-Care
 Settings                     Percent of CACFP children from low-income                        75%*          72.3%            11
                              households
 Goal 5:Low-Income            Increased children’s participation in SFSP
 Children Consume
 Nutritious Lunches           Number of participating sponsors                                 4,000          3,667
 when School Meals Are
 Not Available                Number of participating sites                                   33,000         31,170           13

                              Number of participating children                          2.57 million        2.09 mil
 MI1: Continually             Improved diversity of FNS work force
 Improve the Quality,
 Effectiveness and            Percent of senior positions held by women                       46%*             50%
 Diversity of the FNS         Percent of senior positions held by minorities                  24%*             24%
 Work Force                   Percent of women in the FNS workforce                             63%            65%            17
                              Percent of minorities in the FNS workforce                        31%            35%
                              Percent of the workforce with disabilities                     13.17%         15.37%

 MI3: Users Have              Continue progress towards full implementation
 Accurate, Timely,            of the Debt Collection Improvement Act (DCIA)
 Financial Data Available
 for Decision Making          Percentage of eligible delinquent food stamp retailer
                              debts referred to Treasury                                       90%*            96%            22
                              Correct identified internal control deficiencies in
                              a timely manner

                              Percentage of audits completed timely                             70%            91%
                                                                                                                              21
                           Percentage of FMFIA material deficiencies corrected                  90%            80%
                           timely
*FY 2000 Performance Goal revised by the FY 2001 Annual Performance Plan

Food Stamp Program
Program Mission             The Food Stamp Program is the Nation’s principal food assistance program, a vital
                            component of the Federal safety net that protects needy persons against hunger. Its initial
                            authorization was granted by the Food Stamp Act of 1964. The program enables low-income
                            households to improve their diets by issuing monthly allotments of coupons (or electronic
                            benefits) redeemable for food at retail stores. Eligibility and allotment amounts are based on
                            household size and income, asset limitations, housing costs, work requirements, and other
                            factors. Benefits are adjusted annually to reflect changes in the cost of the Thrifty Food Plan
                            (a market basket of foods for a nutritious low-cost diet). The Federal Government pays the
                            full cost of benefits and funds over half of the expenses incurred by the States to administer
                            the program.




Final Version                                                                                                    Page 4
 Food and Nutrition Service                                                                          Fiscal Year 2000 MD&A



Participation             Participation in fiscal year 2000 fell to an annual average of 17.16 million persons – down by
                          over 1 million persons (almost 6 percent) from the annual average in 1999. Part of this
                          decrease is attributable to favorable economic conditions and a continuation of the downward
                          participation trend that began in 1995. In addition, a portion of the decrease is attributable to
                          Welfare Reform legislation which affected eligibility for food stamps in a number of ways
                          such as changing household definitions and limiting the amount of time an able-bodied adult
                          can receive food stamps. Whereas almost 11 percent of the total U.S. population received
                          food stamps in 1994, about 6 percent received food stamps in FY 2000.



                                      Program Performance: Food Stamps Participation and
                                                       U.S. Population
                                     30
                                     25
                                     20
                                     15
                                     10
                                      5
                                      0
                                          1994      1995      1996      1997      1998     1999     2000

                                                 Participants (in millions)    Percent of U.S. Population



                          The most recent survey of household characteristics , conducted during fiscal year 1999,
                          indicates that almost 52 percent of all participants were children under 18 years of age – most
                          of them in single parent households. Additionally, over 9 percent of all participants were
                          elderly adults age 60 or older.




Final Version                                                                                                     Page 5
 Food and Nutrition Service                                                                    Fiscal Year 2000 MD&A




                                              Distribution of Food Stamp Participants, 1999



                                                                                                     Children in Single
                                                                                                     Parent Households
                               Nonelderly Adults
                                                                                                           34.3%
                                    39.1%




                                                                                                    Children in Other
                                                   Elderly Adults                                     Households
                                                                                Children in Multiple
                                                       9.4%                                               4.2%
                                                                                 Adult Households
                                                                                       13.0%




                          In fiscal year 1999, the gross income of about 90 percent of “cash only” households (i.e.,
                          households not receiving food stamps) was below the Federal poverty level; 35 percent were
                          at or below 50 percent of poverty.


                                                                    Cash Only




                                      50% of Poverty
                                         or less
                                         35.2%
                                                                                                51 to 100% of
                                                                                                   Poverty
                                                                                                    54.3%
                                                   101+% of
                                                    Poverty
                                                    10.5%




                          Food stamps are made available to most low-income households with few resources to
                          supplement their food purchases and help them maintain a healthy diet. In FY 1999, food
                          stamps were over one-fifth of the average participating household’s total monthly income
                          (cash + food stamps). If the value of food stamps is counted in addition to cash as gross
                          income, the proportion of low-income people above the poverty line would move from under
                          11 percent to 17 percent. In addition, the proportion of the poorest households (50 percent of
                          poverty or less) falls from 35.2 percent to 17.4 percent.




Final Version                                                                                                    Page 6
 Food and Nutrition Service                                                                      Fiscal Year 2000 MD&A



                                                            Cash and Food Stamps

                                                50% of Poverty
                                                   or less
                                                   17.4%



                                           101+% of
                                            Poverty                                            51 to 100% of
                                            17.0%                                                 Poverty
                                                                                                   65.6%




Benefits                  Benefit costs were $14.99 billion in fiscal year 2000 compared to $15.76 billion in 1999. The
                          average monthly benefit per person increased from $72.20 to $72.77 during the same time
                          period primarily due to a 1.8 percent increase in the cost of the Thrifty Food Plan. The
                          Thrifty Food Plan serves as a national standard for a nutritious diet and is used as the b asis for
                          food stamp allotments. In addition to benefit costs, the food stamp appropriation includes the
                          Federal share of State administrative costs, grants to States for Employment and Training
                          (E&T) activities, and other Federal costs such as printing and distribution of stamps. Total
                          expenses for the Food Stamp Program (includes $1 billion for Puerto Rico) were $18.5 billion
                          in fiscal year 2000 while the value of unissued food stamp coupons in inventory at September
                          30, 2000 was $2.2 billion.

Payment Accuracy          Food Stamp payment accuracy continues to be an FNS priority. One of FNS’ performance
                          goals as discussed in the fiscal year 2000 Annual Performance Plan is to maintain payment
                          accuracy in the delivery of Food Stamp Program benefits. Payment accuracy is measured by
                          State agencies via an annual statistical sample of households participating in the Food Stamp
                          Program. A total of about 60,000 case files are reviewed each year, out of a total of over 100
                          million each year. This large sample is, in turn, subsampled by FNS to measure the over and
                          underpayment accuracy for the program.

                          In FNS’ fiscal year 2000 Annual Performance Plan, FNS established the goal of maintaining a
                          90.1 percent payment accuracy in the Food Stamp Program from fiscal year 1998 to fiscal
                          year 1999. During the period from fiscal year 1993 through fiscal year 1996, the overall
                          accuracy rate increased from 89.19 percent to 90.78 percent. In fiscal years 1997and 1998,
                          the payment accuracy rate decreased by 0.66 and 0.81 percentage points, respectively.
                          However, in FY 1999, a payment accuracy rate of 90.12 percent was once again achieved
                          thereby meeting the established goal.




Final Version                                                                                                     Page 7
 Food and Nutrition Service                                                                             Fiscal Year 2000 MD&A


                                                           Payment Accuracy Rates in the Food Stamp Program

                                                     91

                                                    90.5




                                   Accuracy Rates
                                                     90

                                                    89.5

                                                     89

                                                    88.5

                                                     88
                                                             1993   1994    1995      1996       1997      1998    1999
                                                                                   Fiscal Year




                          FNS continues to provide enhanced funding to those States who maintain error rates below a
                          certain level. The 2000 Annual Performance Plan established the goal of eight States
                          receiving enhanced funding in FY 2000 for their achievements in lowering error rates. In
                          fiscal year 2000, six State agencies received a total of $39.2 million based on their fiscal year
                          1999 payment accuracy performance: Mississippi, South Carolina, Arkansas, Texas, South
                          Dakota and Wyoming.

Claims Collections        Claims are established against food stamp households that have received an overissuance
                          in food stamp benefits. In recent years, FNS increased both the rate at which claims are
                          established and collected and the total dollar amount of claims collected. For example, in
                          FY 1996, newly established claims represented about 1.5 percent of total issuance. In
                          FY 2000, the rate is about 1.6 percent. In addition, the dollar amount of claims collected has
                          risen from $171 million in FY 1996 to over $214 million in FY 2000.




Final Version                                                                                                        Page 8
 Food and Nutrition Service                                                                                   Fiscal Year 2000 MD&A




                                                               Total Claims Collected by Fiscal Year

                                                    $250,000,000




                                 Amount of Claims
                                                    $200,000,000

                                                    $150,000,000

                                                    $100,000,000

                                                     $50,000,000

                                                             $0




                                                                   1993


                                                                          1994


                                                                                 1995


                                                                                         1996


                                                                                                1997


                                                                                                       1998


                                                                                                                 1999


                                                                                                                        2000
                                                                                        Fiscal Year



                          FNS’ fiscal year 2001 Annual Performance Plan revised the targets for the proportion of
                          established claims collected and the amount of claims collected to 71 percent and
                          $215.8 million, respectively. In fiscal year 2000, FNS collected about 88 percent of claims
                          established for a total dollar amount collected of about $214.4 million. FNS achieved the
                          targets set for the percent of claims collected for FY 2000 but did not meet the target for the
                          amount of claims collected. It is extremely important to note that these numbers do not
                          represent final numbers for FY 2000. Several States have waivers that establish later
                          reporting dates for claims information – most notably in New York and California.

Sanctions Against         Food retailers are essential components in the delivery of food stamp benefits. The right
Violating Stores          for stores to redeem food stamps, however, is contingent upon the stores accepting the
                          responsibility to operate the program correctly – to sell only food for food stamps, and not
                          trade food stamps for cash (i.e., trafficking). When stores are known to violate program rules,
                          there are associated sanctions. The sanction system was instituted so that stores will know
                          that they will be penalized for failure to follow program rules.

                          The indicator established in the FY 2000 Annual Performance Plan (and revised by the
                          FY 2001 Annual Performance Plan) measures efficient maintenance of the sanctioning
                          system. Since there are about 180,000 stores authorized to redeem food stamps, FNS, due to
                          staff year limitations, can only monitor a small percentage of them. Maintaining or increasing
                          the number of sanction actions taken against violating stores is expected to help keep down
                          the number of violations. Due to improved sophistication in targeting potential store
                          violators, we expect sanction levels to remain steady even as store compliance levels improve.
                          In FY 1999, FNS sanctioned 1,365 violating stores. The target for FY 2000 was revised to
                          reflect 1,365 sanctioned stores. In fact, in FY 2000, FNS sanctioned 1,349 stores, and so, by a
                          very slim margin, did not achieve the targets set in FNS’ Annual Performance Plan.


Electronic Benefits       The number of States that have an Electronic Benefits Transfer (EBT) system for issuing
Transfer                  food stamp benefits is a key indicator of efficiency progress since EBT offers a more
                          effective and efficient way of redeeming food stamp benefits than the traditional paper
                          coupon system. Stores and recipients prefer EBT to the paper-based system. EBT also offers
                          greater ability at detecting and sanctioning both recipient and store trafficker. The Personal




Final Version                                                                                                                  Page 9
 Food and Nutrition Service                                                                      Fiscal Year 2000 MD&A

                          Responsibility and Work Opportunity Act of 1996 requires that all States must implement an
                          EBT system for issuing food stamp benefits by October, 2002.

                          FNS’ fiscal year 2000 Annual Performance Plan includes the goal of increasing the number of
                          States operating EBT systems to 42 in fiscal year 2000. In fact, as of September 2000,
                          42 States used EBT to issue food stamp benefits.

Child Nutrition Programs

Program Mission           The purpose of the Child Nutrition Programs – the National School Lunch (NSLP), School
                          Breakfast (SBP), Summer Food Service (SFSP), Special Milk (SMP), and the Child and
                          Adult Care Food Programs (CACFP) – is to improve the nutrition level of America’s children
                          by assisting State and local government in providing food services that serve healthful,
                          nutritious meals to children in public and nonprofit private schools, child care institutions,
                          summer recreation programs, and certain adult day care centers.

Program Performance       In fiscal year 2000, a total of 7.65 billion meals were served in Child Nutrition Programs, up
                          from 7.55 billion in fiscal year 1999. The share of total meals served to children from low
                          income families was 65.8 percent – down slightly from the year before.


                                                    Child Nutrition Program Performance
                                              Free and Reduced Price Meal Service in FY 2000


                                             8,000,000

                                             6,000,000

                                             4,000,000

                                              2,000,000
                                                                                                Total Meals
                                                      0
                                                                                              Free/RP Meals
                                                          NSLP

                                                                 SBP

                                                                       SFSP

                                                                              CACFP

                                                                                      TOTAL




                          On any given school day in fiscal year 2000, more than one of every two schoolchildren in
                          America ate lunch through the National School Lunch Program. The program was available
                          in 97,425 schools and institutions with a total enrollment of 47.7 million children; reaching
                          about 90 percent of all school children. Average daily participation was 27.1 million, up
                          7 percent from fiscal year 1999. Meal service in the reduced price and paid categories
                          increased in FY 2000. Reduced-price meals served increased by 3.5 percent and paid meals
                          increased by 1.8 percent. Free meal service, however, decreased by .8 percent.

                          Expansion of the School Breakfast Program, particularly in low-income areas, is mandated by
                          Congress. Since fiscal year 1995, program availability has risen from 65,064 institutions with
                          an enrollment of 31.7 million to 73,599 institutions with an enrollment of 36.4 million in
                          fiscal year 2000. The program is now available to 69 percent (over two thirds) of the student
                          population, as compared to only 63 percent in fiscal year 1995. Average daily participation in
                          fiscal year 2000 was 7.53 million, up 2.1 percent from the prior year. The portion of meals
                          served free or at reduced price fell slightly from 85.4 percent in fiscal year 1999 to
                          84.2 percent in fiscal year 2000.


Final Version                                                                                                 Page 10
 Food and Nutrition Service                                                                   Fiscal Year 2000 MD&A



                                          Schools and Children Enrolled in the SBP


                         80,000
                         70,000
                         60,000
                         50,000
                         40,000
                                                                                                 Number of Schools
                         30,000
                                                                                                 Children Enrolled
                         20,000
                         10,000
                              0
                                   1995     1996     1997    1998     1999    2000
                                                     Fiscal Year




CACFP Meals Targeted      Total meal service in the Child and Adult Care Food Program grew by about two percent
to Low-Income Children    between fiscal years 1999 and 2000. Recent Federal reforms in welfare and child care
                          call for increased CACFP participation by children from low-income households. For an
                          incentive to increase low-income children’s participation, the legislation provides for
                          differential meal reimbursement (Tier 1 for family day care homes and Tier 2 for the non-
                          needy providers and children). As a result, one of FNS’ strategic goals for FY 2000 is
                          improved program targeting to, and access by, low-income pre-school children. Because FNS
                          does not collect data on income level of children participating in the CACFP, it is using meal
                          reimbursement data, to correlate to meals served to needy children, as the best proxy available
                          for the numbers of children in these categories. The specific goal for FY 2000, was to serve at
                          least 75 percent of all CACFP meals to low-income children. In child and adult care centers,
                          approximately 71 percent of all meals were served free or at reduced price, about the same as
                          in fiscal year 1999. In family day care homes, approximately 74 percent of all meals were
                          served to low-income children – up slightly from 73 percent in FY 1999. Overall, in both
                          centers and homes, about 72.3 percent of meals were served to low-income children.
                          Therefore, FNS did not achieve the target of 75 percent of meals served to low-income
                          children in FY 2000.

Increased Children’s      The Summer Food Service Program (SFSP) serves children in low-income areas during
Participation in SFSP     the summer months. Only about 16 percent of the children that regularly receive free
                          lunches during the school year participate in the Summer Food Service Program. One of
                          FNS’ strategic goals is to increase children’s participation in the SFSP – particularly because
                          it has historically been difficult to reach more children in needy areas. An increas ed number
                          of SFSP sponsors and sites would directly support progress toward the strategic goal of
                          reducing hunger by assuring low-income households access to adequate supplies of nutritious
                          food.




Final Version                                                                                                 Page 11
 Food and Nutrition Service                                                                                     Fiscal Year 2000 MD&A


                                                       Summer Food Service Program -- Average Number of
                                                                    Children Participating


                              2,220,000
                              2,200,000
                              2,180,000
                              2,160,000
                              2,140,000
                              2,120,000
                              2,100,000
                              2,080,000
                              2,060,000
                              2,040,000
                              2,020,000
                                                                1994          1995      1996     1997          1998      1999     2000




                          In fiscal year 2000, over 136 million meals were served in the Summer Food Service
                          Program – a 1 percent increase from the year before. States reported that 31,170 sites
                          operated throughout the country during the summer of FY 2000 – a decrease of about
                          600 sites from the number reported in FY 1999. Average daily attendance was also down by
                          almost 4 percent in FY 2000 as compared to FY 1999.


                                                       Summer Food Service Program -- Number of Sites
                                                                       Participating

                                                       32,000

                                                       31,000
                                     Number of Sites




                                                       30,000

                                                       29,000

                                                       28,000

                                                       27,000

                                                       26,000
                                                                       1994


                                                                                 1995


                                                                                         1996


                                                                                                1997


                                                                                                        1998


                                                                                                                  1999


                                                                                                                         2000




                                                                                        Fiscal Year




                          The goal for fiscal year 2000 as outlined in FNS’ Annual Performance Plan was to have
                          4,000 sponsors operating 33,000 sites and serving an average of 2.57 million children per day.
                          In fact, for fiscal year 2000, States recorded fewer than 32,000 sites operated by 3,667
                          sponsors serving an average of 2.09 million children per day. Therefore, FNS did not meet
                          the targets for expanding SFSP participation in fiscal year 2000. In its new Strategic Plan for
                          FY 2000 through 2005, FNS states that the Agency plans to facilitate expansion of the
                          Summer Food Service Program through outreach to program sponsors and the elimination of
                          barriers to sponsorship.

Final Version                                                                                                                   Page 12
 Food and Nutrition Service                                                                    Fiscal Year 2000 MD&A

Program Benefits          The Child Nutrition expenses totaled $9.08 billion, including cash, entitlement commodities
                          and the Special Milk Program, in fiscal year 2000. In addition to subsidizing meal service, the
                          appropriation also helps States pay administrative expenses of operating the programs.

The Supplemental Nutrition Program for Women, Infants, and Children (WIC)
Program Mission           The Special Supplemental Food Program for Women, Infants and Children (WIC) provides
                          nutritious supplemental foods, nutrition education and health care referrals at no cost to low-
                          income pregnant or postpartum women, infants and children up to age 5 who are determined
                          by competent professionals to be at nutritional risk. WIC serves one out of every four new
                          mothers and 45 percent of all infants born in the United States.

                          The program consists of three components: a supplemental food package rich in nutrients
                          often lacking in the diets of the target population, nutrition education and counseling
                          (including breastfeeding information), and referrals to health care services. The latter include
                          prenatal and well-baby care, immunization, smoking cessation, and drug and alcohol abuse
                          counseling. Eligibility is based on income limitations (less than 185 percent of federal
                          poverty guidelines), nutritional risk, and State residency requirements. The WIC Farmers’
                          Market Nutrition Program provides many participants with fresh fruits and vegetables while
                          promoting awareness and use of farmers’ markets.

                          WIC is widely regarded as one of the Nation’s most successful and cost-effective public
                          health programs. The collective findings of studies and reports demonstrate the following
                          results: 1) improved birth outcomes—lower infant mortality and fewer premature births;
                          2) improved diet and diet-related outcomes; 3) improved infant feeding practices; 4) improved
                          immunization rates and regular medical care for infants and children; 5) improved cognitive
                          development; 6) reduced incidence of iron deficiency anemia in children; and 7) significant
                          reductions in Medicaid and other health care costs.

Participation             WIC monthly participation averaged 7.20 million in fiscal year 2000, virtually identical to
                          fiscal year 1996. After reaching a peak of 7.41 million in fiscal year 1997, activity has
                          declined modestly for three successive years due to improved economic conditions.
                          Compared to fiscal year 1999, total participation declined 1.6 percent. The decrease was
                          concentrated in the children category (-3.2 percent). Children accounted for 49.4 percent of
                          all participants, infants for 26.3 percent, and women for 24.3 percent. Program expenditures
                          totaled $3.94 billion.


                                                WIC Participation - Monthly Averages
                                                              (Data in Thousands)
                                     8,000
                                     7,000
                                     6,000
                                     5,000
                                                                                                              Children
                                     4,000
                                                                                                              Infants
                                     3,000
                                                                                                              Women
                                     2,000
                                                                                                              Total
                                     1,000
                                         0
                                              1995     1996     1997     1998     1999     2000
                                                                 Fiscal Year




Final Version                                                                                                  Page 13
 Food and Nutrition Service                                                                         Fiscal Year 2000 MD&A




Cost Containment          Mandatory cost containment measures have enabled the WIC Program to reach more
                          participants with the same funds by reducing the average food cost per person. The most
                          successful strategy has been competitive rebate contracts between State Agencies and
                          manufacturers of infant formula, the most expensive item. All states and major Tribal
                          Organizations receive infant formula rebates; nine states received rebates for infant cereal
                          and four for infant juice in fiscal year 2000. The Infant Formula Procurement Act of 1992
                          enhanced competition by enabling FCS to solicit bids for multi-State contracts. In fiscal
                          year 2000, ten multi-state contracts were in effect, seven for infant formula and three for
                          other foods. Rebate savings reduced the monthly food cost per person by approximately
                          one third (from $49.73 to $32.94) and supported more than 1.93 million participants per
                          month. The average food cost in fiscal year 2000 was $32.94, an increase of only
                          5.6 percent from fiscal year 1996 and $0.34 less than fiscal year 1988, the year before cost
                          containment measures were introduced .. One of FNS’ performance goals for fiscal year
                          2000 was to stabilize the food cost per person at the fiscal year 1997 value of $31.67,
                          adjusted for inflation as determined by increases in the Thrifty Food Plan. The inflation-
                          adjusted v alue was $33.66; the target was achieved because the actual food cost per
                          participant was $0.72 below the adjusted value.



                                                 WIC: Monthly Food Cost Per Person

                                 2000

                                 1999
                                                                                                        Without Rebates
                                 1998
                                                                                                        With Rebates
                                 1997

                                 1996

                                        0   5    10   15    20     25      30   35   40   45   50
                                                                 Dollars




Targeting High            WIC assistance is targeted to the highest risk groups. During the July 1999-June 2000
Risk Groups and           period, 66.6 percent of all participants were in the top three priority categories. A
Promoting Health          major factor in WIC’s effectiveness is promotion of nutrition education through
                          individual and group counseling and through provision of educational materials. At least
                          one-sixth of funds available for administration and program services must be spent on
                          nutrition education activities. Emphasis is placed on teaching participants to deal with
                          specific nutritional risks, on achieving positive change in dietary habits, and on the dangers of
                          substance abuse during pregnancy. Particular stress is given to breastfeeding promotion
                          efforts. WIC women who breastfeed receive an enhanced food package, are permitted to
                          participate longer than other postpartum women, and are provided with a support system to
                          encourage success. From fiscal year 1996 through fiscal year 2000, the proportion of
                          postpartum women who breastfeed has risen from 35.7 percent to 41.1 percent.

Farmers’ Market           The WIC Farmers Market Nutrition Program (FMNP) has a dual purpose: to provide WIC
Nutrition Program         participants with fresh, nutritious, unprepared foods while promoting awareness and use of
                          farmers’ markets by consumers. FMNP coupons are issued to eligible recipients separately
                          from their regular WIC food instruments; the Federal benefit ranges from $10 to $20 per


Final Version                                                                                                     Page 14
 Food and Nutrition Service                                                                    Fiscal Year 2000 MD&A

                          recipient per year at the discretion of the States. Nutrition education is provided by State
                          agencies (often in conjunction with local WIC agencies) to encourage recipients to improve
                          their diets by adding fresh fruits and vegetables and to advise them in preparing FMNP foods.
                          In fiscal year 1999 (the latest available data), over 1.5 million recipients received program
                          benefits. A total of 39 State agencies and Tribal Organizations participated in fiscal year
                          2000, unchanged from the previous year. One of FNS’ fiscal year 2000 performance goals
                          was to have all States participating in the Farmers Market Nutrition Program; it was not
                          achieved. However, 4 new agencies (2 States and 2 Tribal Organizations) are applying to
                          participate in fiscal year 2001. A level of $15 million was appropriated for the FMNP in the
                          WIC account in fiscal year 2000.

Commodity Assistance Programs
                          FNS provides assistance to a variety of groups through food distribution. In fiscal year 2000,
                          the Commodity Assistance Programs appropriation included funds for The Emergency Food
                          Assistance Program (TEFAP) and the Commodity Supplemental Food Program (CSFP).

                          TEFAP helps States relieve hunger and distress by making both purchased commodities and
                          surplus USDA foods available to soup kitchens, food banks, and other emergency feeding
                          organizations. FNS also subsidizes State administrative costs, such as warehousing and
                          delivering commodities. The allocation of food and administrative grants is based on a
                          formula which combines the number of persons below the poverty level and the number of
                          unemployed persons. In fiscal year 2000, administrative costs were funded through the
                          Commodity Assistance Program appropriation while food costs were under the Food Stamp
                          appropriation. FNS costs totaled $136 million.

                          CSFP is a food distribution predecessor of the WIC Program. Its original goal—and its
                          highest priority—is to serve a similar target group of women, infants and children. CSFP also
                          provides food packages to improve the health of low-income elderly persons. As the WIC
                          Program has expanded, the women-infant-children component of CSFP has contracted.
                          Comp ared to fiscal year 1996, total participation has risen 9.1 percent from 357 thousand to
                          389 thousand. However, the women-infants -children component has declined by 31 percent,
                          and its share of total participation has fallen from 38.5 percent to 24.5 percent. The number of
                          states with CSFP projects increased from 19 to 24. FNS program costs in fiscal year 2000
                          totaled $87 million--$67.4 million for entitlement commodities and $19.2 million for
                          administrative costs.

                          Other commodity assistance programs include the Food Distribution Program on Indian
                          Reservations (FDPIR) and the Nutrition Program for the Elderly (NPE). FDPIR--an
                          alternative to the Food Stamp Program for tribal organizations—served 121.5 thousand
                          needy persons per month, 6.2 percent fewer than in fiscal year 1999. The decrease occurred
                          after six consecutive years of program growth. FNS commodity and administrative costs
                          totaled $66 million. The Nutrition Program for the Elderly subsidized 252 million meals
                          served in senior centers or delivered to the homebound. The proportion of home-delivered
                          meals has risen from 46.7 percent in fiscal year 1993 to 55.7 percent in fiscal year 2000. FNS
                          costs were $136 million.

The FNS Workforce

Workforce Diversity       FNS is committed to establishing a work force that values diversity and works together to
                          fulfill the Agency mission and an Agency committed to equal opportunity at all levels of the
                          organization. This includes a firm commitment to achieve equitable, consistent, Agency-wide
                          policies and systems providing equal access and reasonable accommodations where
                          employees with disabilities are treated fairly, with dignity and respect, and to establish FNS as


Final Version                                                                                                  Page 15
 Food and Nutrition Service                                                                    Fiscal Year 2000 MD&A

                          an employer of choice. To this end, FNS established a performance goal for FY 2000 of
                          achieving and maintaining representation of women and minorities in both senior positions
                          and the work force generally. In addition, FNS seeks to ensure that they continue to employ
                          employees with targeted disabilities. These goals were met in FY 1999, and FNS sought to
                          sustain baseline levels achieved in prior years.

                                                     Improved Diversity of the FNS Work Force
                                                  Category                          Target                 Actual
                              Percent of senior positions filled by women            46%                    50%
                              Percent of senior positions filled by minorities       24%                    24%
                              Percent of women in the FNS workforce                  63%                    65%
                              Percent of minorities in the FNS workforce             31%                    35%
                              Percent of the work force with disabilities           13.17%                 15.37%

                          In FY 2000, FNS met its goals of maintaining prior year levels of women and minorities in
                          senior level positions. In addition, FNS met the goals of maintaining or exceeding the
                          FY 1999 levels of women, minorities and persons with disabilities in the work force.

Financial Statements

Limitations of            The financial statements that follow have been prepared to report the financial condition
Financial                 and results of operations of the Food and Nutrition Service pursuant to the requirements
Statements                of the Chief Financial Officers Act of 1990.

                          While the statements have been prepared from the records of the Food and Nutrition Service
                          in accordance with the formats prescribed by Office of Management and Budget (OMB)
                          Bulletin 97-01, "Form and Content of Financial Statements”, these statements are different
                          from the financial reports used to monitor and control budgetary resources which are prepared
                          from the same books and records.

                          These statements should be read with the realization that they are for a sovereign entity, that
                          unfunded liabilities reported in the financial statements cannot be liquidated without the
                          enactment of an appropriation, and that the payment of all liabilities other than for contracts
                          can be abrogated by the sovereign entity.

                          Financial and program activity information in this document reflects the status of the Agency
                          at the close of the fiscal year. Other Agency publications may reflect changes, usually minor,
                          that have occurred subsequent to the preparation of this document.

Systems, Controls, and Legal Compliance

Introduction              In fiscal year 2000, the Food and Nutrition Service had new budget authority equal to
                          $35.05 billion which represents about 48 percent of the $73.36 billion in new budget authority
                          for the entire Department of Agriculture. The size and visibility of FNS’ programs have had a
                          marked impact on the Agency’s need to invest resources into its financial management
                          operations.

Management Controls       The Food and Nutrition Service’s Management Control process has two key aspects:
                          the development of internal controls to be used in the operation of its programs; and the daily
                          assessment of the health of its programs and Agency internal control systems, culminating in
                          FNS’ end-of-year assessment and assurance statement. The Agency’s work in putting
                          controls in place is demonstrated by its issued directives: program regulations, legislative
                          improvements, handbooks, instructional materials, etc., and by the technical assistance


Final Version                                                                                                  Page 16
 Food and Nutrition Service                                                                    Fiscal Year 2000 MD&A

                          provided to program operators in States and local agencies. Agency managers are working
                          together to link daily operations and future planning with the requirements of the Government
                          Performance Reform Act (GPRA) and the management control process described by OMB
                          Circular A-123.

                          Each senior manager must provide the Administrator with an end-of-year assessment of the
                          status of the internal controls within the senior manager’s area of oversight. The end-of-year
                          assessment provides Agency managers with the opportunity to formally summarize the year
                          long informal evaluation of Agency programs and operations. By formally considering the
                          information gained from audits, management evaluations, and the other information sources
                          detailed in the assessment, Agency managers are reviewing the significant accomplishments
                          as well as the serious problems uncovered during the year. The assurance statement provided
                          by each senior manager allows the manager to certify that, to the best of their ability, the
                          manager and his or her organization are:

                          •   working with the Agency to help put controls in place for the areas within the manager’s
                              control and for the problems detected by the manager’s staff;
                          •   performing assessments on the status of the internal controls found in the manager’s area
                              of oversight; and,
                          •   reporting on the status of these controls in the end of year assurance to the Administrator.

                          What is included in each senior manager’s assessment is open ended and subject to the
                          Manager’s discretion. However, at a minimum, each senior manager must consider the
                          information found in the following sources of information:

                          •   OIG and GAO reports, including audits, inspections, reviews and investigations;
                          •   Evaluations of State agency management of Federal programs;
                          •   State and local agency performance reporting;
                          •   Agency internal reviews of financial and program operations;
                          •   Annual performance plans subject to GPRA; and,
                          •   Management knowledge gained from daily operations.

                          When senior managers provide their end-of-year assessment certifying that proper controls
                          are in place, they may also identify areas of operation where vulnerabilities have been
                          discovered to exist. Highly vulnerable areas with significant potential for loss are classed as
                          “material weaknesses.” Issues determined to have a lesser level of vulnerability have been
                          described as areas of potential weakness or “areas of concern.” This year, FNS Headquarters’
                          Deputy Administrators were tasked with the responsibility to review the areas of concern
                          identified by the FNS Regional Offices as well as those that may be identified by other
                          Headquarters’ senior managers to determine if areas of concern identified within their area are
                          material.

                          A key feature of FNS’ management control process is its Management Control Steering
                          Committee. The Committee is composed of Headquarters’ and Regional Office senior
                          managers and is responsible for establishing management control policy for the Agency. The
                          material found in the Agency’s contribution to the Department’s FMFIA has been prepared
                          under the oversight of this Steering Committee, and it is this material that the group presents
                          to the Administrator and Associate Administrator for their decision on the Agency’s operating
                          objectives and material weaknesses. Fiscal Year 2000 marked the 11th anniversary of the
                          establishment of the Management Control Steering Committee.

FNS Material              Many of FNS’ material weaknesses are broad structural weaknesses that have arisen out
Weaknesses                of operation of Federal programs by non-Federal agencies. Few are directly within the
                          immediate operational control of FNS. Controlling the material weaknesses identified in FNS
                          programs requires corrective action that attempts to broker the cooperation of more than


Final Version                                                                                                 Page 17
 Food and Nutrition Service                                                                    Fiscal Year 2000 MD&A

                          300 State level cooperators, and several thousand local agencies. The control features that
                          may need to be adopted to improve operations may need to be incorporated in several
                          thousand State and County level management systems.

                          For Fiscal Year 2000, FNS identified ten areas of material weakness under Section 2 of the
                          Federal Managers’ Financial Integrity Act. All ten are continuing material weaknesses. The
                          areas of material weakness are:

                          1. FNS-90-01 Cost Reimbursements in the Food Stamp Program: Need for more intensive
                          on-site review of administrative costs claimed for reimbursement by State agencies
                          administering the Food Stamp Program in order to ensure that Federal funds for State
                          administrative expenses are not misused.

                          2. FNS-90-02 Cost Reimbursements in the Women, Infants and Children (WIC) Program:
                          Need for more intensive on-site review of administrative costs claimed for reimbursement by
                          State agencies administering the Special Supplemental Program for Women, Infants, and
                          Children (WIC) and for guidance on acceptable methods of charging costs to the Program in
                          order to ensure that Federal funds for State administrative expenses are not misused.

                          3. FNS-90-04 Management of food delivery systems for the WIC Program: State agencies
                          administering the WIC Program require more detailed guidance and more intensive oversight
                          from FNS in the area of food delivery systems management to prevent Program abuse by
                          WIC vendors.

                          4. FNS-90-06 Illegal transactions involving the exchange of food stamps: Participation by
                          authorized retailers in illegal transactions involving the exchange of food stamps for cash,
                          drugs, weapons, or other felony-level ineligible items.

                          5. FNS-91-01 Internal controls fo r management of recipient claims: Agency procedures for
                          establishing, recording, adjusting, collecting, and reporting on claims need strengthening.
                          Program funds are lost when claims are not established timely and pursued vigorously.

                          6. FNS-91-02 Administration of the Food Stamp Program at State agencies: State agencies
                          administering the Food Stamp Program overissue Program benefits at a rate exceeding
                          established tolerances and resulting in a loss of Program dollars.

                          7. FNS-94-01 Management of the Child and Adult Care Food Program: Management and
                          monitoring of weaknesses in the Child and Adult Care Food Program (CACFP) need
                          strengthening due to a variety of management and oversight problems, sponsoring
                          organizations have been identified as receiving excessive Federal funds for meal service.

                          8. FNS-97-01 Avoidable costs in Food Stamp Program: FNS will be charged significant
                          avoidable costs from the lack of adequate personnel resources to oversee new development
                          efforts in the State Public Assistance systems. State systems are greatly impacted by the
                          changes needed to meet Welfare Reform initiatives, and more than 50 percent of these
                          systems have exceeded their useful lives and must be replaced. A large part of the total costs
                          for development and modifications of State systems are borne by FNS.

                          9. FNS-99-01 Evaluation and performance measurement: FNS is unable to adequately
                          measure and assess program performance, and to develop and test potential program changes
                          to address emerging problems.

                          10. FNS-99-02 National School Lunch and Breakfast Program (NSLP and SBP) Eligibility:
                          Data indicates a potential problem with the integrity of determinations of household eligibility
                          for free and reduced price meals. A significant percentage of children from ineligible
                          households may be receiving free or reduced price meals.

Final Version                                                                                                 Page 18
 Food and Nutrition Service                                                                   Fiscal Year 2000 MD&A


Audit Resolution          Under the third Management Initiative in the FY 2000 Annual Performance Plan, FNS
                          established a goal of correcting identified internal control deficiencies in a timely manner.
                          Performance is based on a standard of resolving all recommendations in each audit within
                          time frames specified in the management decision, but in each case the entire audit should be
                          resolved within a three year period, or documentation should explain why it was not resolved.
                          This effort includes activity to achieve final action and closure on audit recommendations
                          only, and does not include components for audit distribution or obtaining management
                          decision on recommendations. For FMFIA material weaknesses, the standard is the stated
                          milestones in the corrective action plan not completed within the promised time frames which
                          should be no more than 10 percent. Keeping in mind that most of FNS’ reported material
                          weaknesses are far-reaching and complex, and by nature inherent in the management of our
                          programs, the Agency is working with the OCFO to develop a more meaningful process for
                          reporting on true material weaknesses and the development of corrective action plans to
                          address them.

                          For fiscal year 2000, FNS set the twin goals of 70 percent of audits completed timely and
                          90 percent of FMFIA material deficiencies corrected timely. In fiscal year 2000, 100 FNS
                          related audits were issued, and the Agency closed 91, achieving a 91 percent rate of audits
                          closed to audits issued thereby meeting FNS’ stated goal.

                          For fiscal year 2000, FNS had 10 material weaknesses. A total of 35 corrective action
                          milestones related to these deficiencies were scheduled to be completed for the year. Of
                          these, 28 were accomplished, a an 80 percent rate for the year. The Agency did not meet its
                          target for closure of material weakness milestones. Delays in publishing WIC Vendor
                          Integrity regulations and a reconsideration of the corrective action needed to improve the FSP
                          STARS System and improve the integrity in WIC State Agency funds management and in
                          Employment and Training funds management in the Food Stamp Program are a few of the
                          reasons for the delays.

                          While the Agency met its audit performance goal for FY 2000 using the ratio indicator
                          devised for FY 1999 and FY 2000, to avoid any future confusion, the Agency will switch to
                          the Department’s standard for FY 2001. At that point, both the Office of the Chief Financial
                          Officer and FNS will be reporting using the same standard.


The Federal Tax           The Food and Nutrition Service has been submitting Food Stamp over-issuance claims
Refund Offset Program     for collection through Federal collection programs. Starting in 1992, FNS began pilot
                          testing the Federal Tax Refund Offset Program (FTROP). FTROP was added in 1996 and the
                          Treasury Offset Program (administrative offsets) in 1998. State agency participation has been
                          phased in over the last seven years and with the implementation of the remaining four States
                          in 1998, all 51 State agencies are now participating. One hundred percent of eligible
                          delinquent food stamp recipient claims are now transferred to the Department of Treasury for
                          collection.




Final Version                                                                                                Page 19
 Food and Nutrition Service                                                                        Fiscal Year 2000 MD&A



                             The following chart shows the recoveries through Federal collection pro grams since its initial
                             year of operation. Numbers appearing for 2000 are projections.

                                   Federal Offset Recoveries for Participating State Agencies


                  TOTAL          2000        1999        1998        1997        1996        1995        1994        1993      1992

 # of States
 Participating                     51         51          47          43          40          32          21           9        2


 Intercepted          $333       $101*       $91.1       $73.4       $59.9       $40.5       $26.6       $30.7       $ 8.7     $ 3.5
 Collections
 (millions)

*projected

Food Stamp Retailer          In FY 2000, FNS sponsored a project to improve the management of delinquent food
Debt                         stamp retailer debts. Eligible debts include those that are delinquent and for which no
                             collection activity is taking place, but do not include those under repayment agreement, under
                             administrative review or appeal, in litigation or under a court-ordered restitution agreement.
                             One of the project tasks involved “cleaning up” the accounts receivable reports in the
                             accounting system. As a result of this effort, by the end of FY 2000, about 96 percent of all
                             eligible delinquent food stamp retailer debts had been referred to Treasury. This exceeds
                             FNS’ stated FY 2000 performance goal of 90 percent of eligible debt referred to Treasury.




Final Version                                                                                                    Page 20
Food and Nutrition Service
Supplemental Information for Fiscal Year 2000 Operations


Introduction

Purpose          Information provided in this supplementary section is intended to assist the reader in the interpretation
                 of the Food and Nutrition Service's (FNS) operating results for fiscal year 2000. It is also intended to
                 demonstrate the nation-wide scope of the Agency's programs . Note that the figures presented in the
                 fiscal year 1999 Supplemental for fiscal years 1999 and 1998 were preliminary and subject to change;
                 therefore, last year’s and this year’s Supplemental may not match.

FNS Regions      The following data is primarily presented at the regional level. Food and Nutrition Service regions are
                 as follows:

                                                       Food and Nutrition Service
                                                     Organization of Regional Offices

                             Region                     Abbreviation                       States Included

                   Northeast Regional Office               NERO                    CT, ME, MA, NH, NY, RI, VT


                   Mid-Atlantic Regional Office            MARO               DE, DC, MD, NJ, PA, PR, VA, VI, WV

                   Southeast Regional Office                SERO                 AL, FL, GA, KY, MS, NC, SC, TN

                   Midwest Regional Office                 MWRO                       IL, IN, MI, MN, OH, WI


                   Southwest Regional Office               SWRO                        AR, LA, NM, OK, TX

                   Mountain Plains Regional                MPRO            CO, IA, KS, MO, MT, NE, ND, SD, UT, WY
                   Office
                   Western Regional                         WRO               AK, AZ, CA, GU, HI, ID, NV, OR, WA,
                   Office                                                              Pacific Territories



Limitations      Slight differences may exist between data presented in this supplementary section and similar data
                 occurring elsewhere in this document. These differences result primarily from rounding at the regional
                 level.


Food Stamp Program

Food Stamp Program Regional Activity: The following tables provide regional level Food Stamp Program performance
data for the period fiscal year 1996 through fiscal year 2000.




Final Version                                                                                                  Page 21
Food and Nutrition Service                              Fiscal Year 2000 Supplemental Information


                                          Food Stamp Program
                              Average Annual Program Participation by Region
                                               (Thousands)

                    REGION      FY 96       FY 97       FY 98       FY 99        FY 00

                    NERO           3,026       2,770       2,389         2,247      2,089

                    MARO           3,057       2,782       2,468         2,233      2,033

                    SERO           5,243       4,724       4,189         3,965      3,797

                    MWRO           4,053       3,572       3,154         2,831      2,689

                    SWRO           3,905       3,401       2,891         2,620      2,502

                    MPRO           1,551       1,380       1,216         1,168      1,137

                    WRO            4,708       4,229       3,481         3,120      2,917

                    TOTAL         25,542      22,858      19,788        18,183     17,163




                                           Food Stamp Program
                                     Total Program Issuance by Region
                                                 (Millions)

                     REGION      FY 96      FY 97      FY 98       FY 99         FY 00

                    NERO          $2,800     $2,458     $2,109       $2,035        $1,886

                    MARO           2,736      2,409      2,101          1,915       1,736

                    SERO           4,615      3,970      3,462          3,352       3,235

                    MWRO           3,491      2,999      2,619          2,369       2,320

                    SWRO           3,468      2,914      2,473          2,294       2,219

                    MPRO           1,291      1,116        973           950         930

                    WRO            4,041      3,684      3,151          2,841       2,661

                    TOTAL        $22,441    $19,550    $16,889     $15,755        $14,988




Final Version                                                                                       Page 22
Food and Nutrition Service                                     Fiscal Year 2000 Supplemental Information


                                            Food Stamp Program
                                  Average Monthly Per Person Benefit by Region
                                                  ($/Person)

                   REGION           FY 96          FY 97       FY 98         FY 99            FY 00

                  NERO                    77.11        73.94      73.58            75.46         75.24

                  MARO                    74.58        72.15      70.93            71.46         71.19

                  SERO                    73.35        70.02      68.87            70.46         71.01

                  MWRO                    71.76        69.96      69.21            69.72         71.88

                  SWRO                    74.01        71.39      71.28            72.96         73.91

                  MPRO                    69.34        67.40      66.68            67.81         68.14

                  WRO                     71.53        72.61      75.43            75.87         76.03

                  NATIONAL                73.21        71.27      71.12            72.20         72.77


Food Stamp Program Compliance Branch Activity: Final FY 2000 data for Compliance Branch activity is not currently
available. The following table contains estimates of FY 2000 activity. Final data will become available during
January 2001. Updated information will be provided at that time.

                                                Food Stamp Program
                                              Compliance Branch Activity

                                            Activity                FY 1999                FY 2000

                    Stores Investigated                                    4,622                4,616

                    Trafficking Found Occurring                             517                  447

                    Violations Detected                                    2,005                1,883

                    Annual Redemptions for Positive Cases                 $113.7               $108.8
                         (in millions of $$)



Child Nutrition Programs

Child Nutrition Programs Regional Activity: The following tables provide regional level performance data for the
National School Lunch Program, the School Breakfast Program, and the Child and Adult Care Food Program over the
period fiscal year 1996 through fiscal year 2000.




Final Version                                                                                              Page 23
Food and Nutrition Service                                   Fiscal Year 2000 Supplemental Information



                                       National School Lunch Program
                             Annual Average Daily Program Participation by Region
                                                 (Thousands)

                REGION         FY 96          FY 97          FY 98           FY 99        FY 00

                NE RO              2,695          2,742           2,799         2,872        2,893
                MARO               3,279          3,299           3,324         3,348        3,387
                SERO               5,520          5,599           5,645         5,697        5,733
                MWRO               4,343          4,402           4,433         4,512        4,552
                SWRO               3,755          3,816           3,862         3,921        3,967
                MPRO               2,360          2,385           2,373         2,397        2,392
                WRO                3,957          4,066           4,129         4,165        4,185
                DOD *                  33             32                32           34           35
                TOTAL             25,942         26,341          26,599        26,946       27,143

                        * The Department of Defense oversees schools.


                                          School Breakfast Program
                             Annual Average Daily Program Participation by Region
                                                 (Thousands)

                REGION         FY 96          FY 97          FY 98           FY 99        FY 00

                NERO                 618            646            660           681           684

                MARO                 743            773            808           827           828

                SERO               1,704          1,791          1,837         1,885         1,903

                MWRO                 693            735            757           786           831

                SWRO               1,273          1,331          1,390         1,453         1,527

                MPRO                 393            409            427           448           470

                WRO                1,159          1,238          1,264         1,290         1,281

                TOTAL              6,583          6,922          7,142         7,371         7,525




Final Version                                                                                            Page 24
Food and Nutrition Service                                          Fiscal Year 2000 Supplemental Information


                                           Child and Adult Care Food Program
                                           Average Daily Attendance by Region
                                                      (Thousands)

                REGION             FY 96            FY 97           FY 98           FY 99            FY 00

                NERO                     276             291              343              373               303

                MARO                     258             249              264              273               274

                SERO                     421             439              469              487               509

                MWRO                     414             424              440              451               461

                SWRO                     320             327              328              339               335

                MPRO                     296             297              297              299               282

                WRO                      430             446              459              447               445

                TOTAL                  2,415            2,472            2,601            2,670           2,609


Availability of National School Lunch Program: The following table displays the trend in National School Lunch
Program participation in relation to the enrollment levels in participating schools.

                                             National School Lunch Program
                              Percent of Students Enrolled in Schools Participating in NSLP
                                            --Based on Average Participation--
                                                       (Thousands)
                    Item                   FY 96            FY 97           FY 98                 FY 99            FY 00

   Enrollment in NSLP Schools                  45,299           46,342           46,937             47,572           47,688

   Average Participation                       25,942           26,341           26,599             26,946           27,143

   Percent Participation of                    57.27%           56.84%           56.67%             56.64%           56.92%
   Enrollment

Cash Payments to States: The programs are operated under an agreement entered into by State agencies and the
Department. Funds are made available by letters of credit to State agencies for use in reimbursing participating schools
and other institutions. Sponsors make application to the State agencies and, if approved, are reimbursed on a per-meal
basis in accordance with the terms of their agreements and the rates prescribed by law. The reimbursement rates are
adjusted annually to reflect changes in the Consumer Price Index for Food Away From Home as provided for in Section
11 of the National School Lunch Act.

         National School Lunch Program (NSLP). Assistance is provided to the States for the service of lunches and
         snacks to children in participating schools and institutions, regardless of household income. Additional
         assistance is provided to the States for serving lunches and snacks free or at a reduced price to needy children.
         States must match a portion of the Federal cash grant. Schools which, in the second previous school year, served
         at least 60 percent of their lunches at free or reduced prices receive an additional 2 cents per meal in assistance.




Final Version                                                                                                       Page 25
Food and Nutrition Service                                        Fiscal Year 2000 Supplemental Information


                                            National School Lunch Program
                                        Reimbursement Rates: July Through June1
                                                        (Cents)


                          95-96                          96-97         97-98            98-99             99-00
        LESS THAN 60% SERVED FREE:

        Paid                           17.25              17.75         18.00            18.00            19.00

        Reduced                      139.50              143.75        149.00           154.25           158.00

        Free                         179.50              183.75        189.00           194.25           198.00

        60% OR MORE SERVED FREE:

        Paid                           19.25              19.75         20.00            20.00            21.00

        Reduced                      141.50              145.75        151.00           156.25           160.00

        Free                         181.50              185.75        191.00           196.25           200.00

        MAXIMUM PAYMENT RATES:

        Paid                           25.25              25.75         26.00            26.00            27.00

        Reduced                      156.50              160.75        166.00           171.25           175.00

        Free                         196.50              200.75        206.00           211.25           215.00

        SUPPLEMENTS:

        Paid                            4.50               4.50          4.00             4.00              5.00

        Reduced                        24.75              25.25         26.00            26.75            27.00

        Free                           49.25              50.50         51.75            53.25            54.00


        Commodity Reimbursement Rate

                                       14.25              14.50         15.00            14.75            14.75

                  1 Rates higher in Alaska and Hawaii.


        School Breakfast Program (SBP). Federal reimbursement is based on the number of breakfasts served to
        children from low, lower, or upper income families. Schools that served at least 40 percent of their lunches at
        free or reduced prices in the second preceding year and had unusually high preparation costs, which exceeded
        regular breakfast per meal reimbursement, receive higher subsidies in both the free and reduced-price categories.




Final Version                                                                                                 Page 26
Food and Nutrition Service                                            Fiscal Year 2000 Supplemental Information


                                               School Breakfast Program
                                         Reimbursement Rates: July Through June1
                                                        (Cents)


                                      95-96                  96-97         97-98            98-99            99-00
        NON-SEVERE NEED:

        Paid                           19.50                  19.75         20.00            20.00           21.00

        Reduced                        69.75                  71.75         74.50            77.25           79.00

        Free                           99.75                 101.75        104.50           107.25          109.00

        SEVERE NEED:

        Paid                           19.50                  19.75         20.00            20.00           21.00

        Reduced                        88.50                  91.25         94.50            97.75          100.00

        Free                         118.50                  121.25        124.50           127.75          130.00

                  1 Rates are higher in Alaska and Hawaii.


        Child and Adult Care Food Program (CACFP). Nonprofit child care centers and family and group day care
        homes receive subsidies for meals served to preschool and other children. Profit-making child care centers
        receiving compensation under Title XX of the Social Security Act (Title XX) may participate in the program if
        25 percent of the children enrolled are Title XX participants. Certain adult day care centers are also eligible for
        participation in this program if they provide meals to persons 60 years or older or to adults who are functionally
        impaired. They must be nonprofit unless they receive compensation under Title XIX or Title XX of the Social
        Security Act for at least 25 percent of their enrollees. The Child and Adult Care Food Program provides
        reimbursement to State agencies at varying rates for breakfasts, lunches, suppers, and meal supplements.

        The Personal Responsibility and Work Opportunity Reconciliation Act of 1996 (P.L. 104-193), enacted
        August 22, 1996, made a fundamental change to the family day care home component of CACFP by
        establishing a two tier system of reimbursement to better target Federal benefits to low-income children and
        providers. Prior to enactment of this law, meals served to all children in family day care homes had received the
        same set of reimbursement rates for breakfasts, lunches, suppers and snacks.

        One and one-half percent of total CACFP obligations from the second preceding year are provided for audits and
        administrative reviews of CACFP institutions. Under the Regional Office Administered Program (ROAP), the
        Office of the Inspector General contracts with Certified Public Accounting firms for audits of the child care
        institutions directly administered by FNS. FNS may use some of these funds not needed for audits for
        administrative reviews of child care sponsors for which the regional office is responsible.




Final Version                                                                                                     Page 27
Food and Nutrition Service                                       Fiscal Year 2000 Supplemental Information


                                             Child and Adult Care Food Program
                                          Reimbursement Rates: July Through June1
                                                          (Cents)

                              95-96                     96-97           97-98           98-99            99-00
       BREAKFASTS (in Centers):
       Paid                                19.50         19.75          20.00            20.00           21.00
       Reduced                             69.75         71.75          74.50            77.25           79.00
       Free                                99.75        101.75         104.50           107.25          109.00
       LUNCHES and SUPPERS (in Centers):
       Paid                                17.25         17.75          18.00            18.00           19.00
       Reduced                           139.50         143.75         149.00           154.25          158.00
       Free                              179.50         183.75         189.00           194.25          198.00
       SUPPLEMENTS (in Centers):
       Paid                                    4.50       4.50            4.00            4.00               5.00
       Reduced                             24.75         25.25          26.00            26.75           27.00
       Free                                49.25         50.50          51.75            53.25           54.00
       COMMODITY REIMBURSEMENT RATE
                                           14.25         14.50          15.00            14.75           14.75
       MEALS SERVED IN LOW-INCOME HOMES
       Breakfasts                          84.50         86.25          88.00            90.00           92.00
       Lunches/Suppers                   153.75         157.50         162.00           165.00          169.00
       Snacks                              45.75         47.00          48.00            49.00           50.00
       MEALS SERVED IN UPPER INCOME HOMES

       Breakfasts                          N.A.          N.A.           33.00            34.00           34.00
       Lunches/Suppers                     N.A.          N.A.           98.00           100.00          102.00
       Snacks                              N.A.          N.A.           13.00            13.00           13.00
        1 Rates higher in Alaska and Hawaii.


Special Supplemental Food Program for Women, Infants, and Children

Special Supplemental Food Program for Women, Infants, and Children (WIC): The following tables provide regional
level performance data for the WIC Program over the period fiscal year 1996 through fiscal year 2000.




Final Version                                                                                                Page 28
Food and Nutrition Service                                       Fiscal Year 2000 Supplemental Information


                                      Special Supplemental Food Program for
                                       Women, Infants and Children (WIC)
                                  Average Monthly Participation Level by Region
                                                   (Thousands)
           REGION                 FY 96           FY 97          FY 98          FY 99                   FY 00

           NERO                      729                742               744              731             714
           MARO                      913                926               913              886             884
           SERO                    1,353              1,391             1,382            1,352           1,271
           MWRO                    1,051              1,046             1,039            1,025           1,010
           SWRO                    1,031              1,073             1,077            1,091           1,116
           MPRO                      485                491               480              479             467
           WRO                     1,626              1,739             1,733            1,748           1,736
           TOTAL                   7,284              7,505             7,367            7,311           7,197


                                     Special Supplemental Food Program for
                                      Women, Infants, and Children (WIC)
                               Average Monthly Food Cost Per Participant by Region
                                                   ($/Person)
           REGION                FY 96          FY 97           FY 98          FY 99                    FY 00

           NERO                    32.69             33.02             33.22            33.96            34.01
           MARO                    34.67             34.91             35.08            35.86            35.82
           SERO                    29.94             30.75             30.66            32.10            34.11
           MWRO                    30.76             30.78             30.17            31.75            32.43
           SWRO                    27.85             28.04             27.73            28.01            28.21
           MPRO                    30.80             30.79             30.63            30.14            30.35
           WRO                     32.12             33.12             34.01            34.43            34.21
           TOTAL                   31.19             31.67             31.75            32.51            32.94


Breastfeeding Promotion Efforts: The WIC program promotes breastfeeding as the best form of infant feeding through
the provision of support and encouragement to new mothers and through nutrition education during pregnancy. In
addition, breastfeeding WIC mothers receive a larger food package and, if otherwise eligible, are able to stay on WIC for
a longer period of time than non breastfeeding postpartum women. By law, States are required to expend at least
$23.92 per pregnant and breastfeeding participant for breastfeeding promotion and support. Many States spend more
than this minimum requirement on breastfeeding promotion.

Between 1996 and 2000 the number of breastfeeding women served by the WIC Program increased by over
27 percent (from over 292,000 to over 373,000) while total postpartum women rose by less than 11 percent. The
proportion of total WIC postpartum women who breastfeed increased from 40.4 percent to 41.2 percent from
FY1999 to FY2000.




Final Version                                                                                                    Page 29
Food and Nutrition Service                                   Fiscal Year 2000 Supplemental Information


                       Special Supplemental Food Program for Women, Infants, and Children
                                                      (WIC)
                                Percent of WIC Postpartum Women Who Breastfeed
                                                   (Thousands)
                       Fiscal      Breastfeeding     Total Postpartum         Percent
                       Year          Women               Women            Breastfeeding
                                                                              of Total
                       1996             292                 819                 35.7

                       1997            330                  863                   38.2

                       1998            346                  876                   39.5

                       1999            363                  899                   40.4

                       2000            373                  906                   41.2




Commodity Assistance Programs

Commodity Assistance Programs (CAP): The Commodity Assistance Programs appropriation included funding for the
Commodity Supplemental Food Program (CSFP) and administrative expenses for The Emergency Food Assistance
Program (TEFAP). The following tables provide participation data by region and by program component for CSFP over
the period fiscal year 1996 through fiscal year 2000.

                                    Commodity Supplemental Food Program
                                  Average Monthly Participation Level by Region
                                                 (Thousands)
                REGION            FY 96         FY 97             FY 98         FY 99         FY 00

                NERO                  36            44               47             45            49

                MARO                  12            12               10             10            10

                SERO                  26            24               24             24            23

                MWRO                 105           105              110            110           109

                SWRO                  86            92               88             93            94

                MPRO                  47            46               46             47            46

                WRO                   46            47               52             53            58

                TOTAL                357           467              377            382           389




Final Version                                                                                            Page 30
Food and Nutrition Service                                   Fiscal Year 2000 Supplemental Information



                                        Commodity Supplemental Food Program
                                           WIC and Elderly Components
                                                    (Thousands)

                Fiscal       Women, Infants,     Elderly Persons        Total        Percent WIC
                Year          and Children                                             of Total

                  1996             137                 219               357              38.5

                  1997             127                 243               370              34.4

                  1998             128                 249               377              34.0

                  1999             112                 270               382              29.4

                  2000             95                  294               389              24.5




Final Version                                                                                            Page 31
U.S. DEPARTMENT OF AGRICULTURE
BALANCE SHEET
For the year ended September 30, 2000
(IN MILLIONS)

                            Food and Nutrition Service                                 2000
ASSETS
1. Assets for Use by Entity
    a. Federal
       (1) Fund Balance with Treasury (Note 2)                                               19,772
       (2) Other assets (Note 4)                                                                200
    b. Total Federal                                                                         19,972
    c. Non-Federal
       (1) Accounts receivable, Net (Note 3)                                                    256
       (2) General Property Plant & Equipment (Note 5)                                            2
    d. Total Assets for Use by Entity                                                        20,230
2. Assets Not for Use by Entity
    a. Federal
       (1) Fund Balance with Treasury (Note 2)                                                   45
    b. Total Federal                                                                             45
    c. Non-Federal
       (1) Accounts receivable, net (Note 3)                                                     28
    d. Total Assets Not for Use by Entity                                                        73
3. Total Assets                                                                              20,303
LIABILITIES
4. Liabilities Covered by Budgetary Resources:
    a. Federal liabilities
       (1) Accounts payable                                                                       2
    b. Total Federal                                                                              2
    c. Non-Federal liabilities
       (1) Accounts payable (Note 6)                                                          2,459
       (2) Other liabilities (Note 7)                                                            50
    d. Total liabilities covered by budgetary resources                                       2,511
5. Liabilities not Covered by Budgetary Resources:
    a. Federal
       (1) Accrued Federal Employees Compensation Act Bills (Note K)                              2
       (2) Other liabilities (Note 7)                                                            28
    b. Total Federal                                                                             30
    c. Non-Federal
       (1) Annual leave                                                                           8
       (2) Federal Employees Compensation Act liability (Note L)                                  7
       (3) Other liabilities (Note 7)                                                             1
    d. Total liabilities not covered by budgetary resources                                      46
6. Total Liabilities                                                                          2,557
NET POSITION
7. Unexpended Appropriations (Note 9)                                                        17,763
8. Cumulative Results of Operations                                                             (17)
9. Total Net Position                                                                        17,746
10. Total Liabilities and Net Position                                                       20,303




                       The accompanying footnotes are an integral part of these statements
                                                    Page 32
                                                       UNITED STATES DEPARTMENT OF AGRICULTURE
                                                              FOOD AND NUTRITION SERVICE
                                                         CONSOLIDATING STATEMENT OF NET COST
                                                                  For the Year Ended September 30, 2000
                                                                                (in millions)




                                                                 CAP               CN                FS              WIC          OTHER         TOTAL

1 Program Costs
  A. Federal                                             $                2                14              24                4            507           551
  B. Non Federal
        1 Grants and Transfers                                           62             8,755          18,227            3,918            158       31,120
        2 Commodity Inventory Costs                                      68               261              94                 1            55          479
        3 Other Program Costs                                             1                 52            124                16             3          196
  C. Total Program Cost                                                 133             9,082          18,469            3,939            723       32,346
  D. Less: Earned Revenues (Note 12 )                                   -                 -                32              -                1           33
  E. Excess Production Costs Over Revenue                               133             9,082          18,437            3,939            722       32,313
  F. Net Program Costs                                                  133             9,082          18,437            3,939            722       32,313

2 Costs Not Assigned to Programs                                                                                                                        -

3 Less: Earned Revenues Not Attributable to Programs                                                                                                    -




4 Net Cost Of Operations (Note 11)                       $              133             9,082          18,437            3,939            722       32,313




                                                       The accompanying notes are an integral part of these statements

                                                                                  Page 33
U.S. DEPARTMENT OF AGRICULTURE
FOOD AND NUTRITION SERVICE
CONSOLIDATING STATEMENT OF CHANGES IN NET POSITION
For the year ended September 30, 2000
                                                            TOTAL

1.    Net Cost of Operations (Note 11)                          32,313

2.    Financing Sources (other than exchange revenues):

            a.    Appropriations Used                           31,769

            b.    Taxes (and other non-exchange revenues)            -

            c.    Donations (non-exchange revenue)                   -

            d.    Imputed financing                                 536

            e.    Transfers-in                                       -

            f.    Transfers-out                                      -

            g.    Other Financing Sources                            -

3.    Net Results of Operations                                          (8)

4.    Net Results Not Affecting Net Position                         -

5.    Prior Period Adjustments                                       -

6.    Net Change in Cumulative Results of
            Operations                                                   (8)

7.    Increase (Decrease) in Unexpended Appropriations              (236)


8.    Change in Net Position                                        (244)

9.    Net Position-Beginning of Period                          17,990

10.   Net Position-End of Period (Note 14)                      17,746




                                               Page 34
                                                               U.S. DEPARTMENT OF AGRICULTURE
                                                                 FOOD AND NUTRITION SERVICE
                                                              COMBINED STATEMENT OF FINANCING
                                                                For the Year Ended September 30, 2000
                                                                             (in millions)

1. Resources Used to Finance Operations
         a Budgetary
           1. Budgetary Resources Obligated for Items to be Received or Provided to Others                                        $   33,014
           2. Less: Offsetting Collections, Recoveries of Prior Year Authority and Changes in                                            920
                     Unfilled Customer Orders
             3. Net Budgetary Resources Used to Finance Operations                                                                    32,094

         b Non-Budgetary
           1. Property Received from Others Without Reimbursement                                                                 $           -
           2. Less: Property Given to Others Without Reimbursement-Collected
           3. Costs Incurred by Others Without Reimbursement                                                                      $     536
           4. Other Non-Budgetary Resources                                                                                             -
             5. Net Non-Budgetary Resources Used to Finance Operations                                                                  536

         c Total Resources Used to Finance Operations                                                                                 32,630


2. Resoures Used to Fund Items Not Part of the Net Cost of Operations
         a   Increase or (Decrease) in Budgetary Resources Obligated to Order Goods or Services Not Yet Received                  $          17
         b   Budgetary Offsetting Collections Not Increasing Earned Revenue or Decreasing Expense                                             -
         c   Less: Adjustments Made to Compute Net Budgetary Resources Not Affecting Net Cost of Operations                                  10
         d   Resources Funding Expenses Recognized in Prior Periods                                                                          (5)
         e   Resources Financing the Acquisition of Assets or Liquidation of Liabilities                                                 -
         f Other Resources used to Fund Items Not Part of the Net Cost of Operations                                                     -
         g Total Resources Used to Fund Items Not Part of the Net Cost of Operations                                              $          (2)

3. Resources Used to Finance the Net Cost of Operations                                                                           $   32,628


4. Components of Net Cost of Operations Not Requiring or Generating Resources During the Reporting Period
         a Expenses or Earned Revenue Related to the Disposition of Assets or Liabilities or Allocation of Their Cost over Time   $       5
         b Expenses Which Will Be Financed with Budgetary Resources Recognized in Future Periods (Note 1H)                               (4)
         c Other Net Cost Components Not Requiring or Generating Resources During the Reporting Period (Note 1E )                       314
         d Total Components of Net Cost of Operations Not Requiring or Generating Resources During
                  the Reporting Period                                                                                                  315

5 NET COST OF OPERATIONS                                                                                                          $   32,313




                                                                                       Page 35
                             U.S. DEPARTMENT OF AGRICULTURE
                               FOOD AND NUTRITION SERVICE
                       COMBINED STATEMENT OF BUDGETARY RESOURCES
                             For the Year Ended September 30, 2000
                                           (in millions)


Budgetary Resources:

          Budget Authority                                              $   35,086
          Unobligated Balances-Beginning of Period                          17,072
          Spending Authority from Offsetting Collections                       319
          Less: Adjustments                                                  2,757

          Total Budgetary Resources                                     $   49,720



Status of Budgetary Resources

          Obligations Incurred                                          $   33,014
          Unobligated Balances-Available                                     2,876
          Unobligated Balances-Not Available                                13,830

          Total Status of Budgetary Resources                           $   49,720



Outlays

          Obligations Incurred                                          $   33,014
          Less: Actual Spending Authority from Offsetting Collections
                and Actual Adjustments                                         919
          Obligated Balance, Net-Beginning of Period                         2,703
          Obligated Balance, Transferred, Net                                    -
          Less: Obligated Balance, Net-End of Period                         2,966

          Total Outlays                                                 $   31,832




                                       Page 36
                      FOOD AND NUTRITION SERVICE
           FOOTNOTES TO FISCAL YEAR 2000 FINANCIAL STATEMENTS
                    (Amounts shown are in millions except as noted)
   Note 1. Summary of Significant Accounting Policies

A. Basis of Presentation

   These financial statements have been prepared to report significant assets, liabilities, net
   cost of operations, changes in net position, and budgetary resources for the Food and
   Nutrition Service (FNS), as required by the Chief Financial Officers Act of 1990. They have
   been prepared from the books and records of FNS in accordance with the Generally
   Accepted Accounting Principles (GAAP) hierarchy of accounting principles for the Federal
   Government.

B. Reporting Entity

   The Food and Nutrition Service (FNS) was established August 8, 1969, per Secretary's
   Memorandum No 1659 and Supplement 1 pursuant to the authority contained in 5 U.S.C.
   301 and Reorganization Plan No. 2 of 1953. The agency administers USDA's five nutrition
   assistance programs: Food Stamp (FS) Program, Child Nutrition (CN) Programs, Special
   Supplemental Nutrition Program for Women, Infants, and Children (WIC), Commodity
   Assistance Program (CAP) as well as Cash and Commodities for Selected Groups (Food
   Donations). These nutrition programs are intended to provide access to a nutritionally
   adequate diet for families and persons with low incomes, and encourage better eating
   habits among the nation's children. The programs are also intended to help expand
   markets for food produced by American farmers. FNS also administers a Food Program
   Administration appropriation (FPA) , which provides funds for salaries and administrative
   expenses. For the FY 2000 financial statement presentation, FNS has classified its Food
   Donations and FPA appropriations data as “Other” programs.

   FNS is under the jurisdiction of the Under Secretary for Food, Nutrition and Consumer
   Services. FNS is headed by an administrator with overall policy formulated in the FNS
   headquarters in Alexandria, Virginia, and implemented through seven regional offices, 51
   field offices, 13 satellite locations, and 8 service centers. State departments of education
   have responsibility for food programs serving children in schools, child care centers, and
   summer recreation centers. State departments of health, welfare, and agriculture usually
   have responsibility for programs providing food stamp benefits or supplemental foods.

C. Basis of Accounting

   FNS records transactions on an accrual accounting and a budgetary basis. Under the
   accrual method, revenues are recognized when earned and expenses are recognized
   when a liability is incurred, without regard to receipt or payment of cash. Budgetary
   accounting facilitates compliance with legal constraints and controls over the use of Federal
   funds. These financial statements include all funds for which the FNS is responsible and
   were prepared in accordance with the GAAP hierarchy of accounting principles.




                                                 Page 37
                     FOOD AND NUTRITION SERVICE
          FOOTNOTES TO FISCAL YEAR 2000 FINANCIAL STATEMENTS
                           (Amounts shown are in millions except as noted)


D. Accounts Receivable

   The $256 recognized as non-federal accounts receivable includes debts owed FNS by
   individuals, businesses, States and local governments. The largest single component of
   this item consists of Food Stamp Program recipient claims. States establish claims against
   households to recover overissued Food Stamp benefits after they confirm that such
   overissuance have taken place. They are then responsible for pursuing collection of such
   claims. Collections, less an authorized State retention amount, are remitted to FNS. The
   portion of total net realizable receivables consisting of Food Stamp recipient claims is the
   expected amount of such remittance from States. The data generated by the State
   systems of gross account receivables has been established to be unreliable. Accordingly,
   FNS does not know what the State gross account receivable is. FNS does not have any
   alternative method for acquiring reliable State receivable information.

   FNS estimates net realizable Food Stamp accounts receivable through a regression-based
   statistical model. This model estimates future collections by the States, which the States
   will remit to the Federal Government as of the end of the accounting period (Federal fiscal
   year) based on the actual Food Stamp issuance and net claims collections for prior years.
   The forecasting model draws its predictive power from the strong historical relationship
   between the level of Food Stamp Program benefit issuance and the level of recipient claims
   collections by States. Using the statistical technique known as least squares, one can
   estimate the relationship between Food Stamp Program issuance and claims collections
   and use the results to project future claims collection levels. Applying the model to actual
   data covering the period FY 1984 through FY 2000 generates a coefficient of determination
   of 97.5%. The FY 2000 collections projected by the model at the end of FY 1999 proved to
   be accurate within 2% of actual FY 2000 net collections. Because the expected cash flow
   from collections of such claims beyond one year is not expected to be material, FNS does
   not estimate collections after the initial year or discount the estimate produced by the
   statistical model to its present value.

   The Food Stamp Program has a system for monitoring and controlling program issuance
   called the QC system. It is an ongoing, comprehensive monitoring system required by the
   Food Stamp Act to promote program integrity. A statistically valid sample of cases,
   consisting of active cases and “negative case actions” (terminations and denials of
   benefits), is determined each month. State officials review the sampled case records to
   measure and verify the accuracy of eligibility and benefits determinations, made by State
   eligibility workers, against Program standards for the month under review. QC errors
   detected through the review process include both underissuance and overissuance to
   eligible households and issuance to households that are not eligible for benefits.

   Because reliable data is not available addressing gross FNS accounts receivable, the FSP
   QC estimate of FSP benefits overissued nationwide provide the best stat istically valid
   estimate of invalid program payments. Fiscal Year 1999 QC error rates were announced in
   April 2000. Using this methodology, FNS estimates the value of benefit overissuance in
   Fiscal Year 1999 (the most recent year for which data are available) at $1.1 billion. SFFAS
   #1 permits Federal entities to estimate its account receivable. The QC error rate
   overissuance estimate is considered the best estimate available. However, since this is an
   estimate of all FSP overpayments, the actual State gross account receivable amount would
   be lower but the variance can not be quantified. The amount of overissued food stamps is
   included in the total program cost of the Food Stamp Program as reflected in the




                                                Page 38
                       FOOD AND NUTRITION SERVICE
            FOOTNOTES TO FISCAL YEAR 2000 FINANCIAL STATEMENTS
                            (Amounts shown are in millions except as noted)

   Statement of Net Cost. A material amount of the estimate would be bad debt expense if the
   amount of this estimate pertaining to accurate receivable could be quantified.

   FNS does not receive information to calculate QC liabilities for approximately 7 months after
   the end of the fiscal year, therefore, current information is not available for the FY 2000
   financial statements. For FY 1999, 24 States faced potential liabilities totaling almost $75
   because their FY 1999 error rates were above the National average. As he did for the FY 1998
   liabilities, the Secretary again used his authority to adjust the liabilities to credit States for
   serving large numbers wage earners, immigrants and to remove the effects of small errors.
   Sixteen States remained in liability for almost $31.

   These 16 States were offered settlement agreements that would allow investment in program
   improvements in lieu of a repayment in cash. All 16 States signed these agreements and have
   until September 30, 2003 to expend these funds.

                       The QC over Issuance error rate data for the past 3 years follows

                         Fiscal Year               Rate Amount                  Total $ Bil.
                          1999                     7.03 %                       $ 1.1
                          1998                     7.63 %                       $ 1.290
                          1997                     7.28 %                       $ 1.425

E. Accounts Payable

   FNS must estimate the accounts payable for current year grant obligations (other than
   obligations for coupon and EBT food stamp benefits) using a statistical model. This is
   because FNS does not know the exact amount needed by its grantees until the grant close
   out process is completed, which does not occur for 3-9 months after the end of the fiscal
   year, depending on the type of grant. At the end of the fiscal year, accounts payable and
   related obligations were adjusted downward by $313. That amount represents funds which
   will not be used by the grantees and will be deobligated as part of the grant close out
   process the following fiscal year. The downward adjustment made to the current period
   accounts payable is based upon the historical relationship between initial (September 30)
   grant account balances and the final grant account balances produced through the closeout
   process. Adjustments are made on an account specific basis.

F. Grants

   FNS grant programs provide funds to States through a letter of credit process. This
   process allows the grantees to draw on established credit balances, as needed, to pay
   expenses associated with their grants. It also allows the federal government to hold funds
   until the grantees need the funds to pay program expenses. Expenses are recognized as
   Grantees drawdown on the Letter of Credit.

G. Unredeemed and Unissued Food Coupons

   Food coupons are legal obligation instruments of the U.S. Government. FNS records a
   liability and related expense when notified by state agencies that they have issued coupons
   to recipients and records a reduction in liability when notified by the Federal Reserve Banks
   that they have redeemed coupons. The agency does not record in its general ledger or
   present on its financial statements a liability for the value of unissued food coupons which
   are carried as inventory by state agencies or by food coupon printers or which are in transit



                                                 Page 39
                      FOOD AND NUTRITION SERVICE
           FOOTNOTES TO FISCAL YEAR 2000 FINANCIAL STATEMENTS
                            (Amounts shown are in millions except as noted)

   from printers to state inventory sites at the end of the reporting period. Those entities are
   responsible for maintaining coupon inventories in accordance with regulations and must
   indemnify FNS if inventory losses occur. The balance in the food stamp liability account
   represents the value of unredeemed food coupons in the economy which are likely to be
   redeemed. Such food coupons are under the control of the companies which produce,
   distribute, and transport the coupons, as well as the States who control the inventories of
   food coupons available for issuance. Although FNS is indemnified for unaccounted food
   coupons by these companies, FNS must honor all redeemed food coupons.

H. Annual, Sick, and Other Leave

   Annual leave is accrued as it is earned and the accrual is reduced as leave is taken. Each
   year, the balance in the accrued annual leave account is adjusted to reflect current pay
   rates. To the extent that current or prior year appropriations are not available to fund
   annual leave earned but not taken, funding will be obtained from future financing sources.
   Sick leave and other types of nonvested leave are expensed as taken.

I. Retirement Plan

   FNS employees participate in both the Civil Service Retirement System (CSRS) and the
   Federal Employees Retirement System (FERS). FNS makes matching contributions to the
   CSRS plan equal to 8.51 percent of pay, while contributions to the FERS plan are 10.7
   percent of pay. For most employees hired since December 31, 1983, FNS also contributes
   the employer's matching share for Social Security. FERS went into effect pursuant to
   Public Law 99-335 on January 1, 1987. Most employees hired after December 31, 1983,
   are automatically covered by FERS and Social Security. A primary feature of FERS is that
   it offers a savings plan to which FNS automatically contributes 1 percent of pay and
   matches any employee contribution up to an additional 4 percent of pay. FNS makes these
   and other contributions to employee retirement plans as shown in the following table:

                        FNS RETIREMENT CONTRIBUTIONS FOR FY 2000
                    Type of Contribution                        Amount
 CSRS/Transitional retirement contributions -Civil Service                                     4
 FERS regular contributions                                                                    3
 Thrift Savings Plan contribution                                                              1
 TOTAL                                                                                         8

   These contributions are reported as expenses in the Statement of Net Cost. FNS does not
   report CSRS and FERS assets, accumulated plan benefits, or unfunded liabilities, if any,
   applicable to its employees. Reporting such amounts is the responsibility of the Office of
   Personnel Management's Federal Retirement System.

J. Recognition of Financing Sources and Appropriations Used

   FNS receives the majority of the funding it needs to support its programs through annual
   and multi-year appropriations. FNS recognizes appropriations as revenue at the time they
   are used to pay program or administrative expenses. FNS recognizes appropriations
   expended for capitalized property or equipment as expenses when the assets are
   consumed in operations. Appropriations used is the amount of appropriations expended
   during the current period to fund FNS’ nutrition programs. This includes the Food Program
   Administration (FPA) appropriation, which provides funds for salaries and administrative
   expenses.



                                                  Page 40
                     FOOD AND NUTRITION SERVICE
          FOOTNOTES TO FISCAL YEAR 2000 FINANCIAL STATEMENTS
                           (Amounts shown are in millions except as noted)


   At the time grant awards are established, FNS records obligations for the full amount of
   expected program expenses as unexpended obligations-unpaid. Reductions in obligations
   occur as expenses are incurred by grantees. At year-end, the unused portions of grant
   awards are reclassified as unobligated balances and are shown on the balance sheet as
   part of unexpended appropriations. Unobligated balances available for future periods are
   also shown as unexpended appropriations.

K. Accrued Federal Employees Compensation Act Bills

   FNS’ Accrued Federal Employees Compensation Act Bills is comprised of a current portion
   due to the Department of Labor for billed charges to be funded in the subsequent year.

L. Federal Employees Compensation Act Liability

   FNS’ Federal Employees Compensation Act Liability is comprised of a current portion which
   is calculated by USDA’s Office of the Chief Financial Officer (OCFO), and a non-current
   portion which is estimated by the Department of Labor.


   Note 2. Fund Balances with Treasury

   Fund balances with Treasury consist of all unexpended balances on FNS accounts with the
   U.S. Treasury. As of September 30, 2000, the total outstanding fund balance was $19,817.
   Of this amount, $19,772 are “Assets for Use by Entity” funds, and $45 are classified as
   “Assets Not for Use by Entity” funds.

   FNS’ “Assets for Use by Entity” Unobligated balances for Appropriated Funds, consist of
   $2,876 of Available Funds, $13,830 of Expired Authority Funds, and $100 of Restricted
   Funds. FNS’ Restricted Funds consists of funds held in the Food Stamp Reserve. (See
   note 14A. for further disclosures on FNS’ Food Stamp Reserve activities).

   FNS’ “Assets Not for Use by Entity” Unobligated - Available balance for Other Funds,
   consist of $23 held in FNS’ Suspense Account and $22 held in FNS’ Food Stamp
   Redemption Account.




                                               Page 41
                 FOOD AND NUTRITION SERVICE
      FOOTNOTES TO FISCAL YEAR 2000 FINANCIAL STATEMENTS
                      (Amounts shown are in millions except as noted)


                                   FUND BALANCES WITH TREASURY
                               Appropriated Revolving Trust Other    Other Funds:   Total
                                 Funds       Funds    Funds Funds:   Food Stamp
                                                            Suspense Redemption
Assets for Use by Entity

  Obligated                         2,966             0        0        0     0        2,966

  Unobligated - Available           2,876             0        0        0     0        2,876

  Unobligated - Expired            13,830             0        0        0     0       13,830
               Authority

  Unobligated - Restricted           100              0        0        0     0             100


                Total              19,772             0        0        0     0       19,772
Assets Not for Use by Entity

  Obligated                            0              0        0        0      0             0

   Unobligated - Available             0              0        0        23    22            45

   Unobligated - Expired               0              0        0        0      0             0
                Authority

   Unobligated - Restricted            0              0        0        0      0             0


                  Total                 0             0        0        23    22            45




                                            Page 42
                   FOOD AND NUTRITION SERVICE
        FOOTNOTES TO FISCAL YEAR 2000 FINANCIAL STATEMENTS
                        (Amounts shown are in millions except as noted)


Note 3. Accounts Receivable

                                              ACCOUNTS RECEIVABLE
                                          (amounts shown are in thousands)
                                             Allowance for Uncollectible Accounts


                        Gross         Beginning Additions       Ending      Net
                        Accounts      Balance   (Reductions)    Balance     Accounts
                        Receivable                                          Receivable
 ACCOUNTS RECEIVABLE FOR USE BY ENTITY
 Federal                          0                                                   0
 Nonfederal (1)             257,270         887           (62)          825     256,445
 Total Accounts             257,270         887           (62)          825     256,445
 Receivable for Use by
 Entity
 ACCOUNTS RECEIVABLE NOT FOR USE BY ENTITY
 Federal                            0        0               0           0             0
 Nonfederal                    29,940    1,541             (58)      1,483        28,457
 Total Accounts                29,940    1,541             (58)      1,483        28,457
 Receivable Not for Use
 by Entity
 Total                        287,210    2,428           (120)       2,308       284,902
 Accounts Receivable

(1) See Note 1.D. for further explanation of FNS’ nonfederal accounts receivable activity.


Note 4. Other Assets

A. Other Assets for Use by Entity

   1. Federal

       Advances to Farm Service Agency/Commodity Credit Corporation                 $ 200

The food commodities represent items purchased with FNS appropriations and held for
donation to states by the Farm Service Agency/Commodity Credit Corporation. The
expenses for products held in inventory are recognized for a specific program when the
products are delivered to the state distributing agency. In accordance with USDA policy,
FNS establishes a 100% allowance for loss on inventories held for donation at yearend.
Therefore, this item has carrying value of zero and does not appear on the Balance
Sheet.




                                             Page 43
                     FOOD AND NUTRITION SERVICE
          FOOTNOTES TO FISCAL YEAR 2000 FINANCIAL STATEMENTS
                            (Amounts shown are in millions except as noted)


Note 5. General Property, Plant and Equipment

Property and equipment are depreciated over their useful economic lives, which average 5-
10 years, using the straight-line method. FNS’ capitalization threshold for property and
equipment for FY 2000 is $5 thousand. FNS owns no buildings or land. At year end,
balances for Property, Plant, and Equipment were as follows:

 PROPERTY, PLANT, AND EQUIPMENT (amounts shown are in thousands)
 Classes                 Cost              Accumulated                                Book
                                           Depreciation                               Value
 Furniture and Equipment           8,230                   6,924                                        1,306
 ADP Software                      1,626                   1,380                                          246
 Sub total                         9,856                   8,304                                        1,552


Note 6. Accounts Payable

The "Accounts Payable, Non-Federal" includes amounts for accounts payable at year's end
for all grant programs totaling $2,421 and electronic benefits transfers (EBT) tot aling $38.
(See Note 1.E. for further explanation of FNS’ Accounts Payable activity.)



Note 7. Other Liabilities

                                        OTHER LIABILITIES
      Description               Non-Current             Current                                 Total
 Other Liabilities Covered by Budgetary Resources:

 Federal, Other liabilities                    0                                0                          0
 Total                                         0                                0                          0
 Nonfederal, Other                            50                                0                         50
 liabilities
 Total                                        50                                0                         50
 Other Liabilities Not Covered by Budgetary Resources:
 Federal, Other liabilities                  28                                 0                         28
 Total                                       28                                 0                         28
 Nonfederal, Other                            1                                 0                          1
 liabilities
 Total                                        1                                 0                         1

For the FY 2000 financial statements, FNS’ Other Liabilities Covered by Budgetary Resources
nonfederal represent FNS’ liabilities for deposit and suspense accounts and accrued liabilities for
payroll and benefits in the Food Program Administration appropriation. Other Liabilities Not Covered
by Budgetary Resources federal represent FNS’ custodial liability. FNS’ Other Liabilities Not
Covered by Budgetary Resources nonfederal represent FNS’ canceled year
payables.




                                               Page 44
                     FOOD AND NUTRITION SERVICE
          FOOTNOTES TO FISCAL YEAR 2000 FINANCIAL STATEMENTS
                            (Amounts shown are in millions except as noted)


Note 8. Lease Liabilities

Entity as Lessee:

Operating Leases (amounts shown are in thousands):

Description of Lease Arrangements: FNS’ operating leases includes a vehicle and office
space. The vehicle is leased from October 1, 1999 through September 30, 2000 at a cost of
$5 per year. The office space is leased from February 1, 1997 through January 31, 2002 at
a cost of $310 per year. The office space may be renewed for one 5 year term at a cost of
$356 per year. If FNS elects to renew the lease, FNS has the option of terminating the lease
within 120 days after the first 2 years. This renewal term is conditional upon FNS notifying
the Lessor at least 120 days before the end of original lease term.

Future Payments Due

                                         Asset Category

Fiscal Year                               Office Space

Year 4                                      $      103
Year 5                                     $      310
After 5 Years                               $ 1,782
                                          -------------
Total Future Lease Payments                $ 2,195
                                           =======




                                                Page 45
                     FOOD AND NUTRITION SERVICE
          FOOTNOTES TO FISCAL YEAR 2000 FINANCIAL STATEMENTS
                           (Amounts shown are in millions except as noted)


Note 9. Unexpended Appropriations

A. Unexpended Appropriations

This balance includes the unexpended obligations-unpaid and unobligated balances of the
FNS appropriated funds. Obligations and advances of appropriated funds are recorded as
unexpended obligations-unpaid. Unexpended obligations-unpaid are relieved by either an
expenditure or an obligation cancellation. Appropriated funds which are not obligated are
included in the Unexpended Appropriations on the Balance Sheet; these totaled $17,763 as of
the end of the fiscal year. At the end of the fiscal year, certain multi-year appropriations which
have unobligated balances remained available to FNS for obligations in future periods.
Unobligated appropriations are available for obligational authority for a particular appropriation
year until that appropriation is canceled.

                                          Category                         Total
                                  A. Unexpended
                                     Appropriations:

                                     (1) Unobligated

                                       (a) Available                               642

                                      (b) Unavailable                          16,735

                                    (2) Unexpended Obligations                     386
                                        Unpaid
                                  Total                                        17,763


B. Unexpended Obligations - Unpaid

   FNS is committed under obligations it has incurred as of the fiscal year for goods and
   services which have been ordered but not yet received. FNS’ Unexpended Obligations -
   Unpaid amounted to $386 at year's end.

                                             UNEXPENDED OBLIGATIONS - UNPAID
                                     Type                                                  Amount
    Advances                                                                                           200
    Contracts & Other                                                                                  178
    FPA                                                                                                  8
    Total                                                                                              386

Note 10. Contingencies and Commitments

A. Judgment Fund

Most legal actions that affect USDA and involve an amount in excess of $2,500 fall under the Federal
Tort Claims Act and are paid from the Claims and Judgments Fund maintained by the Department of
Treasury. USDA is not required to reimburse this Fund for payments made on its behalf. Pursuant to
the guidance contained in SFFAS Number 5, USDA recognizes an expense and liability for all



                                                Page 46
                    FOOD AND NUTRITION SERVICE
         FOOTNOTES TO FISCAL YEAR 2000 FINANCIAL STATEMENTS
                               (Amounts shown are in millions except as noted)

contingent liabilities determined to be probable and estimable. Once the claim is settled or court
Judgment is assessed against USDA and the Judgment Fund is determined to be the appropriate
source for payment of claims, USDA records an imputed other financing source. During FY 2000,
approximately $6 thousand, respectively, were paid from the Fund to settle actions against USDA.


 Note 11. SUPPORTING SCHEDULE FOR THE STATEMENT OF NET COST

                                                                         RESPONSIBILITY SEGMENT
                                             CAP            CN               FS            WIC           OTHER       TOTAL


 1 Program Costs
   A. Federal
             CSFP/CAP                               2                -                 -             -           -           2
             SCHOOL LUNCH                           -                -                 -             -           -            -
             SCHOOL BREAKFAST                       -                -                 -             -           -            -
             CACF                                   -                -                 -             -           -            -
             SUMMER FOOD                            -                -                 -             -           -            -
             TEAM NUTRITION                         -               2                  -             -           -           2
             OTHER                                  -               3                  -             -           -           3
            FOOD SAFETY                             -                -                 -             -           -            -
            EDUCATION
            MEAL                                    -               9                  -             -           -           9
            REIMBURSEMENT
            FOOD STAMP                              -                -               23              -           -           23
             F/S PUERTO RICO                        -                -                -              -           -           -
             TEFAP                                  -                -                1              -           -           1
             WOMEN, INFANT CHILDREN                 -                -                 -            4            -           4
             FARMERS MARKET                         -                -                 -            -            -           -
             FOOD DISTRIBUTION                      -                -                 -             -       507          507
             NUTR. PROG ELDERLY                     -                -                 -             -         -            -
                        Subtotal        $          2              14                24              4       507          551



  B. Non
     Federal
        1 Grants and Transfers
             CSFP/CAP                              62                -                 -             -           -           62
             SCHOOL LUNCH                           -             (14)                 -             -           -        (14)
             SCHOOL BREAKFAST                       -             (36)                 -             -           -        (36)
             CACF                                   -              130                 -             -           -         130
             SUMMER FOOD                            -              18                  -             -           -           18
             TEAM NUTRITION                         -               5                  -             -           -            5
             OTHER                                  -             178                  -             -           -        178
             FOOD SAFETY                            -               2                  -             -           -          2
             EDUCATION
             MEAL                                   -            8,472                 -             -           -       8,472
             REIMBURSEMEN T
             FOOD STAMP                             -                -            16,967             -           -      16,967
             F/S PUERTO RICO                        -                -             1,260             -           -       1,260
             TEFAP                                  -                -                 -             -           -           -
             WOMEN, INFANT CHILDREN                 -                -                 -         3,901           -       3,901
             FARMERS MARKET                         -                -                 -           17         -              17
             FOOD DISTRIBUTION                      -                -                 -            -        20              20
             NUTR. PROG ELDERLY                     -                -                 -             -       138          138

                        Subtotal        $          62        8,755            18,227         3,918          158       31,120




                                                        Page 47
                  FOOD AND NUTRITION SERVICE
       FOOTNOTES TO FISCAL YEAR 2000 FINANCIAL STATEMENTS
                              (Amounts shown are in millions except as noted)




      2 Commodity Inventory Costs

           CSFP/CAP                             68               -        -         -     -       68

           SCHOOL LUNCH                          -               -        -         -     -        -

           SCHOOL BREAKFAST                      -               -        -         -     -        -

           CACF                                  -               -        -         -     -        -

           SUMMER FOOD                           -               -        -         -     -        -

           TEAM NUTRITION                        -               -        -         -     -        -

           OTHER                                 -             261        -         -     -      261

          FOOD SAFETY                            -               -        -         -     -        -
          EDUCATION
          MEAL                                   -               -        -         -     -        -
          REIMBURSEMENT
          FOOD STAMP                             -               -        2         -     -        2

           F/S PUERTO RICO                       -               -        -         -     -        -

           TEFAP                                 -               -       92         -     -       92

          WOMEN, INFANT                          -               -        -         -     -        -
          CHILDREN
          FARMERS MARKET                         -               -        -         1     -        1

           FOOD DISTRIBUTION                     -               -        -         -    53       53

          NUTR. PROG                             -               -        -         -     2        2
          ELDERLY
                      Subtotal         $        68             261      94         1    55      479


      3 Other Program Costs
          CSFP/CAP                               1               -        -         -     -        1

          SCHOOL LUNCH                           -               2        -         -     -        2

          SCHOOL BREAKFAST                       -               -        -         -     -        -

          CACF                                   -               1        -         -     -        1

          SUMMER FOOD                            -               2        -         -     -        2

          TEAM NUTRITION                         -               1        -         -     -        1

          OTHER                                  -              20        -         -     -       20

          FOOD SAFETY                            -               -        -         -     -        -
          EDUCATION
          MEAL                                   -              26        -         -     -       26
          REIMBURSEMENT
          FOOD STAMP                             -               -      119         -     -      119

          F/S - PUERTO RICO                      -               -        4         -     -        4

          TEFAP                                  -               -        1         -     -        1

          WOMEN, INFANT, CHILDREN                -               -        -        16     -       16

          FARMERS MARKET                         -               -        -         -     -        -

           FOOD DISTRIBUTION                     -               -        -         -     2        2

           NUTR. PROG ELDERLY                    -               -        -         -     1        1

                      Subtotal         $        1              52      124        16     3      196
C. Total Program Production                   133         9,082      18,469     3,939   723   32,346
   Costs




                                                     Page 48
                     FOOD AND NUTRITION SERVICE
          FOOTNOTES TO FISCAL YEAR 2000 FINANCIAL STATEMENTS
                            (Amounts shown are in millions except as noted)



  D. Less: Earned Revenues (Note 12 )            -              -       32        -       1          33
  E. Excess Production Costs Over              133          9,082   18,437    3,939     722      32,313
     Revenues
  F. Net Program Costs                $        133          9,082   18,437    3,939     722      32,313


 2 Costs Not Assigned to Programs

 3 Less: Other Earned Revenues Not Attributed to Programs

 4 Net Cost Of Operations                                                                 $      32,313


The other program costs line item includes administrative expenses whose transfer payments are
not reported in any other program costs.




                                                     Page 49
                    FOOD AND NUTRITION SERVICE
         FOOTNOTES TO FISCAL YEAR 2000 FINANCIAL STATEMENTS
                          (Amounts shown are in millions except as noted)


Note 12. Earned Revenues

A. Earned Revenues from Nonfederal Parties

    1.   Loan Program Interest Revenues                                  $    -0-

    2.   Other Program Revenues                                          $ 33
                                                                   -------------------
    3.   Total Earned Revenue from Nonfederal Parties                    $ 33 [1]

B. Earned Revenues from Federal Entities                                  $ -0-
                                                                   -------------------

C. Total Earned Revenues Attributed to Programs                       $ 33
                                                                  ============

D. Earned Revenues Not Attributed to Programs                            $     -0-


[1] FNS’ earned revenue from nonfederal parties consist of $32 from the state option food stamp
program.

On June 12, 1997, the President signed into law the Supplemental Appropriations Act, Public Law
105-18. This law authorized the state option food stamp program (SOFSP). In this program, States
purchase food coupons from the Federal government for use in a State-funded food assistance
program for legal immigrants, and childless, able-bodied adults ineligible for the Food Stamp
Program.

States operating a SOSFP utilize FNS’ FSP infrastructure. That is, they purchase FSP coupons ( or
electronic benefits transfer (EBT) issued benefits) from FNS which are transacted at FNS authorized
FSP retailers. These benefits are subsequently redeemed through the FRB system.

Upon issuance, States are required to remit payment to FNS for the amount of the benefits issued as
well as reimburse FNS for the costs of shipping, printing and redeeming coupons.
During FY 1996, FY 1997, FY 1998, and FY 1999, FNS identified the percentage of Food Stamp
over issuance dollars attributable to citizenship and alienage of 0.43, 1.20, 4.82, and 2.56 percent,
respectively. This represents invalid payments totaling for the entire fiscal year of about $5 million,
$13 million, $87 million, and $40 million, respectively for all states participating in the Food Stamp
Program. The SOFSP was implemented in August 1977 in 7 states. SOFSP issuance reported
during FY 1999 was about $75 million. The states participating in the SOFSP in FY 1999 had invalid
payments relating to citizenship and alienage benefit determinations of about $27.4 million. A portion
of these invalid payments may be attributed to Welfare Reform and implementation of the SOFSP.

During FY 2000, 9 states reported SOFSP issuance of about $53 million. OIG audits and FNS
reviews have indicated that errors in citizenship and alienage benefit determinations in FY 2000,
because of Welfare Reform and SOFSP activity, will continue during the entire fiscal year. We
estimate that the range of the invalid payments could be between $2 million, based on the premise
that the rate of error in 1999 continues into 2000, and $22 million, based on the rate of Fiscal Year
increase between 1996, 1997, 1998, and 1999 into 2000. These errors would affect the line item
Earned Revenues on the Statement of Net Cost as well as related line items on the Statement of




                                                Page 50
                       FOOD AND NUTRITION SERVICE
            FOOTNOTES TO FISCAL YEAR 2000 FINANCIAL STATEMENTS
                            (Amounts shown are in millions except as noted)

Budgetary Resources and Financing. Final FY 2000 QC data is announced April 30 of the following
Fiscal Year.

During fiscal year 2000, 8 states participated in this program, which generated earned revenues of
$32, as indicated below:

Transaction Category                 Fiscal Year          Amount

Issuance                               2000              $ 34

Refunds/State Adj.                     1999                   (2)

Total                                                     $32

Note 13. Total Cost and Earned Revenue by Budget Functional Classification:

                              Gross       Intra-USDA            Earned        Intra-USDA
Functional Classification     Cost        Eliminations          Revenue       Eliminations   Net Cost

605/Food and Nutrition         $32,346        $ 0                    $33         $ 0         $32,313
     Assistance

Internal USDA Imputed
Cost Not Recorded in the
General Ledger                   0              0                     0           0             0
                               _______        _______               _______   _________      ________

        Total                  $32,346        $ 0                    $33        $ 0          $32,313


Intra-governmental Total Cost and Earned Revenue by Budget Functional Classification:

                             Gross       Earned
Functional Classification    Cost         Revenue             Net Cost

605/Food and Nutrition      $ 0            $ 0                 $0
     Assistance
                              ______     _______          ________
        Total                $ 0          $ 0                $0




                                                    Page 51
                        FOOD AND NUTRITION SERVICE
             FOOTNOTES TO FISCAL YEAR 2000 FINANCIAL STATEMENTS
                             (Amounts shown are in millions except as noted)


  Note 14. Disclosures Related to the Statement of Changes in Net Position

  1.    Net Cost of Operations (Note 11)    $ 32,313

  2.    Financing Sources (other than
           exchange revenues):
        a. Appropriations Used                 31,769
        b. Taxes(and other non-                   -
             exchange revenues)
        c. Donations (non-exchange                  -
            revenue)
        d. Imputed Financing                        536
        e. Transfers-in                             -
        f. Transfers-out                            -
        g. Other Financing Sources                   -
                                                -----------
   3.   Net Results of Operations                   (8)

   4.   Net Results Not Affecting Net               -
         Position

   5.   Prior Period Adjustments                    -
                                               -----------

   6.   Net Change in Cumulative Results            (8)
         of Operations

   7.   Increase (Decrease) in                   (236)
          Unexpended Appropriations           ------------
   8.   Change in Net Position                    (244)


   9.   Net Position-Beginning of Period        17,990
                                              ------------

   10. Net Position-End of Period           $ 17,746
                                             =======

  Note 15. Disclosures Related to Statement of Budgetary Resources

A. Food Stamp Reserve Benefits

  Beginning in fiscal year 1991, Congress has appropriated a reserve as part of the annual one year
  food stamp appropriation. These funds are available for use only in the year appropriated, but
  remain available for legitimate obligations of the period and are considered part of unexpended
  appropriations. The following table shows the amount of food stamp appropriation reserve by fiscal
  year:




                                                  Page 52
                       FOOD AND NUTRITION SERVICE
            FOOTNOTES TO FISCAL YEAR 2000 FINANCIAL STATEMENTS
                             (Amounts shown are in millions except as noted)


                                       FOOD STAMP APPROPRIATION RESERVE FUNDING
     Fiscal Year                         Total Reserve Amount      Unused Reserve Amount
     1994                                               2,500                    2,500
     1995                                               2,500                    2,500
     1996                                                 500                      500
     1997                                                 100                      100
     1998                                                 100                      100
     1999                                                 100                      100
     2000                                                 100                      100
     TOTAL                                              5,900                    5,900

B. Obligations and Transfers

   During FY 2000 there were legal arrangements effecting the use of FNS’ unobligated balances for
   the Food Stamp and Child Nutrition Programs. For FNS’ Food Stamp Program, a food stamp reserve
   account is maintained and funds totaling $100 were reserved as part of the annual one year food
   stamp appropriation.

   FNS received a transfer of $4.9 billion from the Agricultural Marketing Service (AMS) as
   appropriation authority to fund the Child Nutrition Programs. In addition, FNS received transfers of
   food commodities from the Farm Service Agency (FSA) and the AMS which it donates to States for
   distribution to schools and other approved recipients. FNS has included the $507 expense of
   donated commodities incurred for FY 2000 within the Federal Program Costs line item on the
   Statement of Net Cost.

   During FY 2000 FNS transferred approximately $172 from the Food Stamp appropriation to the Food
   Stamp Employment and Training appropriation. Also, during this period, USDA’s Office of the
   Secretary and the Economic Research Service transferred $270 thousand and $1 respectively, to
   FNS’ Food Program Administration. These transfers were made under the authority provided in the
   Agriculture, Rural Development, Food and Drug Administration, and Related Agencies Act for FY
   2000 (Public Law 106-78).

C. Unobligated Balances - Not Available

   This balance represents FNS’ unobligated balances carried forward in an expired year fund.
   Unobligated balances related to expired accounts are available for adjustments but not available for
   new obligations.

D. Downward Adjustment to Accounts Payable

   The downward adjustment made to the current period accounts payable is not reflected on the FY
   2000 Statement of Budgetary Resources because the downward adjustment increases Line 2a
   “Unobligated Balance Brought Forward” and Line 6 “Obligations Incurred”. In addition, past practices
   have shown that by applying the downward adjustment to the SF-133 “Report on Budget Execution”,
   the carryover funds available increased, and this indicated to FNS’ allowance holders that new
   obligations could be incurred when in actuality there is a zero net impact in carryover funds available.




                                                   Page 53
                       FOOD AND NUTRITION SERVICE
            FOOTNOTES TO FISCAL YEAR 2000 FINANCIAL STATEMENTS
                               (Amounts shown are in millions except as noted)


E. Obligated Balance, Net - End of Period
                                                                                   Net Amount

   Unexpended obligations-unpaid at the end of period.                                $ 386


   Note 16. Disclosures Not Related to a Specific Statement

   Custodial Activity



                                                                                                 FY 2000
   A. Sources of Collections

                                 1 Interest                                                      $ -
                                 2 Penalties and Fines                                             -
                                 3 Other Custodial Revenue                                         2
                                 4 Accrual Adjustment                                              1
                        Total Revenue Collected                                                  $ 3

   B. Less: Disposition of Collections:
                   1 Transferred to Others: (by recipient)                                       $ 6

                   2 Increase (Decrease) in Amounts to be Transferred                             (3)


                        Total Disposition of Revenue                                             $ 3

   C. Less: Amounts Retained by the Agency                                                       $ -

   D. Net Custodial Activity                                                                     $ -




   FNS’ FY 2000 custodial activity represents all accounts receivable activity related to canceled year
   appropriations for interest, fines & penalties assessed and collected. For example, civil money
   penalties, interest, retailer and wholesaler fines and penalties. (See Note 1D., “Accounts
   Receivable”, for further disclosures on FNS’ collection activities). FNS transfers these types of
   collections to the Department of Treasury. FNS’ custodial collection activities are considered
   immaterial and incidental to the mission of the FNS.




                                                   Page 54
                              FOOD AND NUTRITION SERVICE
                   REQUIRED SUPPLEMENTARY STEWARDHIP INFORMATION
                               STEWARDSHIP INVESTMENTS
                          (Amounts shown are in millions except as noted)

Human Capital

1. A. Food Stamp Program

     B. Program Expense                                2000

        1. Employment and Training                     $ 156

FNS’ human capital consist of employment and training (E&T) for the Food Stamp Program. The E&T
program requires recipients of food stamp benefits to participate in an employment and training program as a
condition to food stamp eligibility.

Outcome data for the E&T program is only available through the third quarter. As of this period, FNS’ E&T
program has placed 636 thousand work registrants subject to the 3 - month Food Stamp Program participant
limit and 486 thousand work registrants not subject to the limit in either job-search, job-training, job-workfare,
education, or work experience.


Nonfederal Physical Property

1.    A. Food Stamp Program

      B. Program Expense                               2000

          1. ADP Equipment & Systems                   $ 28


FNS’ nonfederal physical property consist of computer systems and other equipment obtained by the State and
local governments for the purpose of administering the Food Stamp Program. The total Food Stamp Program
Expense for ADP Equipment & Systems has been reported as of the date of FNS’ financial statements.


2. A. Special Supplemental Nutrition Program for Women, Infants and Children

      B. Program Expense                               2000

          1. ADP Equipment & Systems                   $ 29


FNS’ nonfederal physical property also consist of computer systems and other equipment obtained by the State
and local governments for the purpose of administering the Special Supplemental Nutrition Program for
Women, Infants and Children (WIC).




                                                     Page 55
                                                              U.S.DEPARTMENT OF AGRICULTURE
                                                                FOOD AND NUTRITION SERVICE
                                                          REQUIRED SUPPLEMENTARY INFORMATION
                                                     CONSOLIDATING STATEMENT OF BUDGETARY RESOURCES
                                                              For the Year Ended Sepember 30, 2000
                                                                       (in millions of dollars)




                                                                              CAP          CN            FS             WIC            OTHER          TOTAL

Budgetary Resources
          Budget Authority
                    Appropriations                                                  133         4,658     21,072              4,032            255       30,150
                    Borrowing Authority                                               -             -              -              -              -            -
                    Contract Authority                                                -             -              -              -              -            -
                    Net Transfers, Current Year Authority                             -         4,935              -              -              1       4,936
                    Other                                                             -             -              -              -              -            -


          Unobligated Balance
                     Brought Forward, October 1                                     14           185      16,842                22               9       17,072
                     Net Transfers, Prior Year, Actual (+ or -)                       -             -              -              -              -            -
                     Anticipated Transfers, Prior Year Balance (+ or -)               -             -              -              -              -            -


          Spending Authority from Offsetting Collections
                    Earned
                       Collected                                                     3            10            302              1               3         319
                       Receivable from Federal Source                                 -             -              -              -              -            -
                     Change in Unfilled Customer Orders
                       Advance Received                                               -             -              -              -              -            -
                       Without Advance from Federal Source                            -             -              -              -              -            -
                     Anticipated for Rest of Year
                       Advance for Anticipated Orders                                 -             -              -              -              -            -
                       Without Advance from Federal Source                            -             -              -              -              -            -
                     Transfers from Trust Funds
                       Collected                                                      -             -              -              -              -            -
                       Anticipated                                                    -             -              -              -              -            -


          Adjustments
                    Recoveries of Prior Year Obligations                              -          279            199            122               -         600
                    Temporarily Not Available Pursuant to Public Law                  -             -          (100)              -              -        (100)
                    Permanently Not Available
                       Cancellation of Expired Year and No Year Account              (4)          (33)        (3,211)            (5)            (4)      (3,257)
                       Enacted Rescissions of Prior Year Balances                     -             -              -              -              -            -
                       Capital Transfers and Redemption of Debt                       -             -              -              -              -            -
                       Other Authority Withdrawn                                      -             -              -              -              -            -
                       Pursuant to Public Law                                         -             -              -              -              -            -
                       Anticipated for Rest of Year                                   -             -              -              -              -            -


          Total Budgetary Resources                                                 146     10,034        35,104              4,172            264       49,720




                                                                          Page 56
Status of Budgetary Resources
           Obligations Incurred                                                   138    9,497   18,968    4,154   257     33,014


          Unobligated Balances Available
                    Apportioned, Currently Available                               7      434     2,546       3    (114)   2,876
                    Anticipated                                                    -        -         -       -        -       -
                    Exempt from Apportionment                                      -        -         -       -        -       -
                    Other                                                          -        -         -       -        -       -


          Unobligated Balance Not Yet Available
                     Apportioned for Subsequent Periods                            -        -          -      -      -           -
                     Deferred                                                      -        -          -      -      -           -
                     Withheld Pending Rexcission                                   -        -          -      -      -           -
                     Other                                                         1      103    13,590      15    121     13,830

          Total Status of Budgetary Resources                                     146   10,034   35,104    4,172   264     49,720


Outlays
          Obligations Incurred                                                    138    9,497   18,968    4,154   257     33,014


          Less: Actual Spending Authority from Offsetting Collections
                and Actual Adjustments
                    Earned
                       Collected                                                   3        10      302       1       3      319
                       Receivable from Federal Sources                             -         -        -       -       -        -
                     Change in Unfilled Customer Orders
                       Advance Received                                             -        -         -       -      -          -
                       Without Advance from Federal Source                          -        -         -       -      -          -
                     Transfers from Trust Funds
                       Collected                                                    -       -         -       -       -        -
                       Anticipated                                                  -       -         -       -       -        -
                     Actual Recoveries of Prior Year Obligations                    -     279       199     122       -      600


          Obligated Balance, Net-Beginning of Period                              14     1,541      822     283     43     2,703


          Obligated Balance transferred, Net                                        -        -         -       -      -          -


          Less: Obligated Balance transferred, Net
                     Accounts Receivable                                            -        -         -       -      -          -
                     Unfilled Customer Orders
                       Federal Sources without Advances                            -         -        -       -      -         -
                       Used Only with Prior OMB Approval                           -         -        -       -      -         -
                       Used Only with Prior OMB Approval                           -         -        -       -      -         -
                     Undelivered Orders                                            -        17      157       4      8       186
                     Accounts Payable                                             17     1,528      838     360     37     2,780

          Total Outlays                                                           132    9,204   18,294    3,950   252     31,832




                                                                        Page 57
